The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors, and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
• Contract and Procurement Irregularities    • Abuse of Authority
• Conflicts of Interest                      • Misuse of Government Credit Card
• Theft and Misuse of Property               • Time and Attendance Abuse
• Travel Fraud                               • Misuse of Information Technology Resources
• Misconduct                                 • Program Mismanagement


Ways To Contact the OIG
                               Call:
                               OIG Hotline
                               1-800-233-3497
                               TDD: 1-800-270-2787
                               7:00 a.m. – 4:00 p.m. (EST)
                               After hours, please leave a message.


                               Submit:
                               Online Form
                               www.nrc.gov                                                  October 1, 2013–March 31, 2014
                               Click on Inspector General
                               Click on OIG Hotline

                                                                                            SEMIANNUAL REPORT
                               Write:
                               U.S. Nuclear Regulatory Commission                           TO CONGRESS
                               Office of the Inspector General
                               Hotline Program, MS O5 E13
                               11555 Rockville Pike
                               Rockville, MD 20852-2738


NUREG-1415, Vol. 27, No. 2
April 2014
OIG VISION                                                          OIG STRATEGIC GOALS
OIG will identify the most critical risks and vulnerabilities in    1. Safety: Strengthen NRC’s efforts to protect public health and
agency operations in a timely manner to allow the agency to            safety and the environment.
take any necessary corrective action and to prevent and detect
                                                                    2. Security: Enhance NRC’s efforts to increase security in
fraud, waste, and abuse.
                                                                       response to an evolving threat environment.
                                                                    3. Corporate Management: Increase the economy, efficiency,
OIG MISSION                                                            and effectiveness with which NRC manages and exercises
                                                                       stewardship over its resources.
The NRC OIG’s mission is to independently and objectively
audit and investigate programs and operations to promote
effectiveness and efficiency, and to prevent and detect fraud,
waste, and abuse.




COVER PHOTOS:

Top Left: Donald C. Cook Nuclear Power Station.
Photo courtesy of American Electric Power

Top Right: NRC Inspector at Calvert Cliffs Nuclear Power Station.

Bottom Left: NRC Inspector performing a walk-down at Calvert
Cliffs Nuclear Power Station.

Bottom Right: Nuclear generator.

Background: Close-up of nuclear construction assembly bolts.
A MESSAGE FROM
THE INSPECTOR GENERAL
I am pleased to present this Semiannual Report to Congress on the activities and
accomplishments of the Nuclear Regulatory Commission (NRC) Office of
the Inspector General (OIG) from October 1, 2013, to March 31, 2014.

Our work reflects the legislative mandate of the Inspector General Act,
which is to identify and prevent fraud, waste, and abuse through the conduct of audits and
investigations relating to NRC programs and operations. The audits and investigations
highlighted in this report demonstrate our commitment to ensuring integrity and efficiency
in NRC’s programs and operations.

During this reporting period, the NRC OIG continued its focus on critical NRC programs
to include the agency’s oversight of its reactor inspection program, its process for addressing
the bankruptcy of materials licensees, as well as investigating decommissioning activities
concerning a nuclear materials disposal site in Pennsylvania. OIG also focused on
legislatively mandated work such as the audit of the agency’s financial statements and its
information security program as well as two agency work/life programs—“Telework” and
“NRC Employee Work Schedule Flexibilities.”

During this semiannual reporting period, we issued 13 audit reports. As a result of this
work, OIG made a number of recommendations to improve the effective and efficient
operation of NRC’s safety, security, and corporate management programs. OIG also
opened 9 investigations, and completed 24 cases. Five of the open cases were referred to the
Department of Justice, and 15 allegations were referred to NRC management for action.

The NRC OIG remains committed to the integrity, efficiency, and effectiveness of NRC
programs and operations, and our audits, investigations, and other activities highlighted
in this report demonstrate this ongoing commitment. My staff continuously strives to
maintain the highest possible standards of professionalism and quality in its audits and
investigations. I would like to acknowledge our auditors, investigators, and support staff for
their superior work and ongoing commitment to the mission of this office.

Finally, the success of the NRC OIG would not be possible without the collaborative efforts
between my staff and those of the agency to address OIG findings and to timely implement
recommended corrective actions. I wish to thank them for their dedication and support, and
I look forward to their continued cooperation as we work together to ensure the integrity
and efficiency of agency operations.



Hubert T. Bell
Inspector General


                                                                      October 1, 2013–March 31, 2014   i
                                                                       Control panel at a nuclear power station.


ii NRC Office of the Inspector General Semiannual Report to Congress
CONTENTS
Highlights  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
	     Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
	Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vii

Overview of NRC and OIG                                            .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
	     NRC’s Mission .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

	     OIG History, Mission, and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

		          OIG History .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

		          OIG Mission and Goals  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3

OIG Programs and Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .4
	     Audit Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

	     Investigative Program .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

	     OIG General Counsel Regulatory Review .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6

		          Regulatory Review .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6

		          Other OIG General Counsel Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 8

		          Other OIG Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9

Management and Performance Challenges  .  .  .  .  .  .  .  . 12
Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
	     Audit Summaries  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13

	     Audits in Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24

Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30
	     Investigative Case Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30

Summary of OIG Accomplishments                                                          .  .  .  .  .  .  .  .  .  .  .  . 37
	     Investigative Statistics .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37

	     Audit Listings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39

	     Audit Resolution Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

Abbreviations and Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 44
Reporting Requirements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
Appendix  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 46

                                                                                                             October 1, 2013–March 31, 2014   iii
                                        Resident Inspectors perform a walk-down at Calvert Cliffs nuclear power station.


iv NRC Office of the Inspector General Semiannual Report to Congress
HIGHLIGHTS
The following two sections highlight selected audits and investigations completed during this
reporting period. More detailed summaries appear in subsequent sections of this report.

Audits
•	 The U.S. Nuclear Regulatory Commission (NRC) is tasked with examining
   the regulatory compliance and safety of licensed nuclear facilities. One of the
   methods that NRC uses to ensure the compliance and safety of nuclear power
   plants is conducting inspections. The core of the NRC inspection program for
   nuclear power plants is carried out by Resident Inspectors who provide the major
   onsite NRC presence for inspection and assessment of licensee performance and
   conformance with regulatory requirements. The audit objective was to survey
   the effectiveness of NRC support provided to Resident Inspectors at nuclear
   power plants, fuel-cycle facilities, and construction sites.

•	 NRC regulates the civilian use of nuclear materials to protect public health
   and safety and the environment, and to promote the common defense and
   security. NRC’s regulatory framework applies to domestic licenses for civilian
   uses of radioactive materials, and these NRC licensees’ financial condition (i.e.,
   bankruptcy) could affect the agency’s ability to control licensed nuclear materials.
   Therefore, NRC’s primary interest is ensuring that control of nuclear materials is
   maintained during an NRC licensee’s period of bankruptcy. The audit objective
   was to determine if NRC has reasonable assurance that appropriate measures
   to protect the public health and safety have been or will be taken during
   bankruptcies involving materials licensees.

•	 The National Environmental Policy Act of 1969, as amended (NEPA),
   established a national policy to encourage productive and enjoyable harmony
   between man and his environment, promote efforts that will prevent or
   eliminate damage to the environment and biosphere and stimulate the health
   and welfare of man, and enrich the understanding of ecological systems
   and natural resources. NEPA requires Federal agencies, as part of their
   decisionmaking process, to consider the environmental impacts of actions
   under their jurisdiction. NEPA is a procedural statute, imposing no substantive
   requirements on agencies beyond conducting the environmental review. The
   audit objective was to determine whether NRC implements its environmental
   review and consultation responsibilities as prescribed by NEPA.

•	 The U.S. Congress determined “that the use of flexible work schedules has
   the potential to improve productivity in the Federal Government and provide
   greater service to the public.” NRC has implemented increasingly flexible
   work schedule initiatives over a number of years. In November 2009, NRC
   implemented NEWFlex, adding more features to provide an “environment rich
   in work-life balance.” The audit objectives were to assess (1) NRC’s adherence
   to applicable laws and regulations, (2) the adequacy of NRC’s internal controls
   associated with the program, and (3) whether the program adequately addresses
   unique situations such as drug testing, official travel, and other events.


                                                                               October 1, 2013–March 31, 2014   v
                   •	 The Chief Financial Officers Act of 1990, as amended, requires the Inspector
                      General or an independent external auditor, as determined by the Inspector
                      General, to annually audit NRC’s financial statements to determine whether the
                      agency’s financial statements are free of material misstatement. This includes
                      examining, on a test basis, evidence supporting the amounts and disclosures in
                      the financial statements. It also includes assessing the accounting principles
                      used and significant estimates made by management as well as evaluating the
                      overall financial statement presentation. In addition, the audit evaluated the
                      effectiveness of internal controls over financial reporting and the agency’s
                      compliance with laws and regulations.

                   •	 The Telework Enhancement Act of 2010 (the Telework Act), was enacted into
                      law with the goal of ensuring that Federal agencies more effectively integrate
                      telework into their management plans and agency cultures. The Telework Act
                      defines telework as a work-flexibility arrangement under which an employee
                      performs the duties and responsibilities of his or her position from an approved
                      worksite other than the location from which the employee would otherwise
                      work. A full-time teleworker is an employee who works 90 percent or more of
                      the time from an alternate worksite, generally their personal residence. The
                      audit objectives were to determine (1) if NRC’s full-time telework program
                      complies with applicable laws and regulations, and (2) the adequacy of internal
                      controls over the program.

                   •	 Information Technology (IT) governance is the leadership, structures, and
                      processes that ensure that an organization’s IT sustains and extends the
                      organization’s strategies and objectives. Its overall objective is to ensure that the
                      organization can sustain its operations and implement strategies required to meet
                      future objectives using IT. IT governance is necessary to manage information
                      and employ IT to improve the productivity, effectiveness, and efficiency of
                      agency programs. The audit objective was to assess the effectiveness of NRC’s
                      IT governance structure in meeting the agency’s current and future IT needs.

                   •	 On December 17, 2002, the President signed the E Government Act of 2002,
                      which included the Federal Information Security Management Act (FISMA)
                      of 2002. This annual evaluation is required to be performed by the Inspector
                      General or an independent external auditor, as determined by the Inspector
                      General. FISMA outlines the information security management requirements
                      for agencies, which include an annual independent evaluation of an agency’s
                      information security program and practices to determine their effectiveness.
                      This evaluation must include testing the effectiveness of information security
                      policies, procedures, and practices for a representative subset of the agency’s
                      information systems. The evaluation also must include an assessment of
                      compliance with FISMA requirements and related information security policies,
                      procedures, standards, and guidelines. The objective was to perform an
                      independent evaluation of NRC’s implementation of FISMA for fiscal year 2013.




vi NRC Office of the Inspector General Semiannual Report to Congress
•	 The Atomic Energy Act and NRC regulations limit commercial nuclear
   power reactor licenses to an initial 40 years. Due to this selected period, some
   components may have been engineered on the basis of an expected 40-year
   service life. Components degraded due to aging have caused reactor shutdowns,
   failure of safety-related equipment, and reduction in the safety margin of
   operating nuclear power plants. Therefore, effective and proactive management
   of aging of components is a key element for safe and reliable nuclear power plant
   operation. The audit objective was to determine if NRC is providing effective
   oversight of industry’s aging component programs.

•	 On January 24, 2000, Congress enacted the Reports Consolidation Act of 2000,
   requiring Federal agencies to provide financial and performance management
   information in a more meaningful and useful format for Congress, the President,
   and the public. The act requires the Inspector General of each Federal agency to
   annually summarize what he or she considers to be the most serious management
   and performance challenges facing the agency and to assess the agency’s progress
   in addressing those challenges.




Investigations
•	 OIG completed an investigation in response to a letter from Pennsylvania Senator
   Robert P. Casey, Jr., to OIG requesting answers to seven questions concerning the
   Shallow Land Disposal Area (SLDA) in Armstrong County, PA. Between 1961
   and 1970, the Nuclear Material and Equipment Corporation, an Atomic Energy
   Commission licensee, buried low-level wastes from its Apollo Fuel Fabrication
   Facility at SLDA. Apollo operations included small-scale production of high- and
   low-enriched uranium and thorium fuel for commercial nuclear power plants and
   U.S. Navy propulsion reactors, scrap recovery, and research and development.
   Based on official records, Apollo was the only source of the waste buried in SLDA.
   Senator Casey’s questions focused on NRC’s past oversight of SLDA to ensure
   compliance with waste burial and decommissioning requirements and on NRC’s
   involvement in the current SLDA remediation effort.

•	 OIG completed an investigation into an allegation that the NRC staff took too long
   in examining and working to mitigate possible flood hazards to the Oconee Nuclear
   Station in Seneca, South Carolina. The identification of potential flood hazards was
   identified based on a 2006 inspection finding concerning the Safe Shutdown Facility.

•	 OIG completed an investigation into an allegation that the NRC staff intentionally
   mischaracterized safety related information as sensitive security information in
   an effort to conceal the information from the public in response to a Freedom of
   Information Act (FOIA) request. The FOIA request pertained to NRC Generic
   Issue 204, Flooding of U.S. Nuclear Power Plants Following Upstream Dam
   Failure. According to the allegation, the information redacted from the NRC
   document was relevant to the safety of U.S. nuclear power plants and should not
   have been redacted.

                                                                       October 1, 2013–March 31, 2014   vii
                   •	 OIG completed an investigation into allegations pertaining to the handling of
                      safety concerns by NRC management. NRC staff alleged that management’s
                      actions related to the handling of safety concerns pertaining to a potential flooding
                      event at Tennessee Valley Authority’s (TVA) Watts Bar Nuclear Plant had been
                      retaliatory and had created a chilled and hostile work environment within their
                      division. According to certain NRC staff, they (1) were constantly challenged
                      and obstructed for raising a safety concern, (2) were constrained for having a
                      questioning attitude, and (3) faced hostility and threat of retaliation for their
                      persistence. Another concern was that the NRC branch involved in the TVA
                      Watts Bar flooding issue was dissolved as a result of the disagreement over the
                      handling of the safety concerns.

                   •	 OIG completed an investigation into an allegation that NRC was wasting funds
                      by paying travel related and per diem expenses for an NRC employee to work in
                      NRC headquarters one week per month while the employee was in a full-time
                      telework status in another state.




viii NRC Office of the Inspector General Semiannual Report to Congress
OVERVIEW OF NRC AND OIG
NRC’s Mission
NRC was formed in 1975, in accordance with the Energy Reorganization Act of
1974, to regulate the various commercial and institutional uses of nuclear materials.
The agency succeeded the Atomic Energy Commission, which previously had
responsibility for both developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and
special nuclear materials to ensure adequate protection of public health and safety,
promote the common defense and security, and protect the environment. NRC’s
regulatory mission covers three main areas:

•	 R
    eactors—Commercial reactors that generate
   electric power and research and test reactors used
   for research, testing, and training.

•	 Materials—Uses of nuclear materials in medical,
    industrial, and academic settings and facilities that
    produce nuclear fuel.

•	 Waste—Transportation, storage, and disposal of
    nuclear materials and waste, and decommissioning of
    nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses for
nuclear facilities and users of nuclear materials, and (3) inspect facilities and users
of nuclear materials to ensure compliance with the requirements. These regulatory
functions relate both to nuclear power plants and other uses of nuclear materials—
like nuclear medicine programs at hospitals, academic activities at educational
institutions, research, and such industrial applications as gauges and testing
equipment.

NRC maintains a current Web site and a public document room at its headquarters
in Rockville, MD; holds public hearings and public meetings in local areas and at
NRC offices; and engages discussions with individuals and organizations.

	




                                                                         October 1, 2013–March 31, 2014   1
                   OIG History, Mission, and Goals
                   OIG History
                   In the 1970s, Government scandals, oil shortages, and stories of corruption covered
                   by newspapers, television, and radio stations took a toll on the American public’s
                   faith in its Government. The U.S. Congress knew it had to take action to restore
                   the public’s trust. It had to increase oversight of Federal programs and operations.
                   It had to create a mechanism to evaluate the effectiveness of Government programs.
                   And, it had to provide an independent voice for economy, efficiency, and effectiveness
                   within the Federal Government that would earn and maintain the trust of the
                   American people.

                   In response, Congress passed the landmark legislation known as the Inspector
                   General Act (IG Act), which President Jimmy Carter signed into law in 1978. The
                   IG Act created independent Inspectors General, who would protect the integrity
                   of Government; improve program efficiency and effectiveness; prevent and detect
                   fraud, waste, and abuse in Federal agencies; and keep agency heads, Congress, and
                   the American people fully and currently informed of the findings of IG work.

                   Today, the IG concept is a proven success. The IGs continue to deliver significant
                   benefits to our Nation. Thanks to IG audits and investigations, billions of dollars
                   have been returned to the Federal Government or have been better spent based
                   on recommendations identified through those audits and investigations. IG
                   investigations have also contributed to the prosecution of thousands of wrongdoers.
                   In addition, the IG concepts of good governance, accountability, and monetary
                   recovery encourage foreign governments to seek advice from IGs, with the goal of
                   replicating the basic IG principles in their own governments.




2 NRC Office of the Inspector General Semiannual Report to Congress
OIG Mission and Goals
NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance
with the 1988 amendment to the IG Act. NRC OIG’s mission is to independently
and objectively audit and investigate programs and operations to promote
effectiveness and efficiency, and to prevent and detect fraud, waste and abuse.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing this
commitment. Such planning ensures that audit and investigative resources are used
effectively. To that end, OIG developed a Strategic Plan that includes the major
challenges and critical risk areas facing NRC.

The plan identifies OIG’s priorities and establishes a shared set of expectations
regarding the goals OIG expects to achieve and the strategies that will be employed
to do so. OIG’s Strategic Plan features three goals, which generally align with NRC’s
mission and goals:

1. 	 S
      trengthen NRC’s efforts to protect public health and safety and the
     environment.

2.	 E
     nhance NRC’s efforts to increase security in response to an evolving
    threat environment.

3.	 I ncrease the economy, efficiency, and effectiveness with which NRC
     manages and exercises stewardship over its resources.




                                                                       October 1, 2013–March 31, 2014   3
OIG PROGRAMS AND ACTIVITIES
                   Audit Program
                   The OIG Audit Program focuses on management and financial operations;
                   economy or efficiency with which an organization, program, or function is
                   managed; and whether the programs achieve intended results. OIG auditors
                   assess the degree to which an organization complies with laws, regulations, and
                   internal policies in carrying out programs, and they test program effectiveness as
                   well as the accuracy and reliability of financial statements. The overall objective
                   of an audit is to identify ways to enhance agency operations and promote greater
                   economy and efficiency. Audits comprise four phases:

                   •	 Survey
                           phase—An initial phase of the audit process is used to gather
                      information, without detailed verification, on the agency’s organization,
                      programs, activities, and functions. An assessment of vulnerable areas
                      determines whether further review is needed.

                   •	 V
                       erification phase—Detailed information is obtained to verify findings and
                      support conclusions and recommendations.

                   •	 R
                       eporting phase—The auditors present the information, findings,
                      conclusions, and recommendations that are supported by the evidence
                      gathered during the survey and verification phases. Exit conferences are held
                      with management officials to obtain their views on issues in the draft audit
                      report. Comments from the exit conferences are presented in the published
                      audit report, as appropriate. Formal written comments are included in their
                      entirety as an appendix in the published audit report.

                   •	 R
                       esolution phase—Positive change results from the resolution process
                      in which management takes action to improve operations based on the
                      recommendations in the published audit report. Management actions
                      are monitored until final action is taken on all recommendations. When
                      management and OIG cannot agree on the actions needed to correct a
                      problem identified in an audit report, the issue can be taken to the NRC
                      Chairman for resolution.

                   Each October, OIG issues an Annual Plan that summarizes the audits planned for
                   the coming fiscal year. Unanticipated high-priority issues may arise that generate
                   audits not listed in the Annual Plan. OIG audit staff continually monitor specific
                   issues areas to strengthen OIG’s internal coordination and overall planning
                   process. Under the OIG Issue Area Monitor (IAM) program, staff designated as
                   IAMs are assigned responsibility for keeping abreast of major agency programs
                   and activities. The broad IAM areas address nuclear reactors, nuclear materials,
                   nuclear waste, international programs, security, information management, and
                   financial management and administrative programs.




4 NRC Office of the Inspector General Semiannual Report to Congress
Investigative Program
OIG’s responsibility for detecting and preventing fraud, waste, and abuse within
NRC includes investigating possible violations of criminal statutes relating to NRC
programs and activities, investigating misconduct by NRC employees, interfacing
with the Department of Justice on OIG-related criminal matters, and coordinating
investigations and other OIG initiatives with Federal, State, and local investigative
agencies and other OIGs. Investigations may be initiated as a result of allegations or
referrals from private citizens; licensee employees; NRC employees; Congress; other
Federal, State, and local law enforcement agencies; OIG audits; the OIG Hotline; and
OIG initiatives directed at areas bearing a high potential for fraud, waste, and abuse.

Because NRC’s mission is to protect the health and safety of the public, OIG’s
Investigative Program directs much of its resources and attention to investigating
allegations of NRC staff conduct that could adversely impact matters related to health
and safety. These investigations may address allegations of:

•	 Misconduct
            by high-ranking NRC officials and other NRC officials, such as
   managers and inspectors, whose positions directly impact public health and safety.

   
•	 Failure by NRC management to ensure that health and safety matters are
   appropriately addressed.

   
•	 Failure by NRC to appropriately transact nuclear regulation publicly and candidly
   and to openly seek and consider the public’s input during the regulatory process.

   
•	 Conflicts  of interest involving NRC employees and NRC contractors and
   licensees, including such matters as promises of future employment for favorable
   or inappropriate treatment and the acceptance of gratuities.

   
•	 Fraud in the NRC procurement program involving contractors violating
   Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to identify
specific high-risk areas that are most vulnerable to fraud, waste, and abuse. A primary
focus is electronic-related fraud in the business environment. OIG is committed to
improving the security of this constantly changing electronic business environment by
investigating unauthorized intrusions and computer-related fraud, and by conducting
computer forensic examinations. Other proactive initiatives focus on determining
instances of procurement fraud, theft of property, Government credit card abuse, and
fraud in Federal programs.

	




                                                                        October 1, 2013–March 31, 2014   5
                   OIG General Counsel Regulatory Review
                   Regulatory Review
                   Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG reviews
                   existing and proposed legislation, regulations, policy, and implementing Management
                   Directives (MD), and makes recommendations to the agency concerning their impact
                   on the economy and efficiency of agency programs and operations.

                   Regulatory review is intended to provide assistance and guidance to the agency
                   prior to the concurrence process so as to avoid formal implementation of potentially
                   flawed documents. The OIG does not concur or object to the agency actions
                   reflected in the regulatory documents, but rather offers comments.

                   Comments provided in regulatory review reflect an objective analysis of the language
                   of proposed agency statutes, directives, regulations and policies resulting from
                   OIG insights from audits, investigations, and historical data and experience with
                   agency programs. OIG review is structured so as to identify vulnerabilities and offer
                   additional or alternative choices.

                   To effectively track the agency’s response to OIG regulatory review, comments
                   include a request for written replies within 90 days, with either a substantive reply or
                   status of issues raised by OIG.

                   From October 1, 2013, through March 31, 2014, OIG reviewed a variety of agency
                   documents including Commission papers (SECYs), Staff Requirements Memoranda,
                   and Federal Register Notices, Management Directives, regulatory actions, and statutes.

                   Comments provided on particular matters addressed during this period are described
                   below.

                      
                   •	 NRC    Allegations Manual, Revision 1: This manual was prepared by the agency in
                      parallel with the most recent revision of Management Directive 8.8, Management
                      of Allegations, a companion reference document. The Allegation Manual revision
                      was developed to provide additional assistance to NRC staff in implementing the
                      allegation program in practice. The Allegation Manual is intended for internal
                      use by NRC staff who receive, evaluate, and respond to allegations, and contains
                      instructions, correspondence templates, and reference information to support
                      allegation processing.

                   	OIG comments on the revised draft focused on clarification of terms, including
                     definitions of key phrases, e.g, “chilling effect letter,” “action office,” and
                     “Glomar,” as well as moving the glossary to the beginning of the reference. In
                     addition, suggestions were provided to more fully and correctly identify OIG
                     jurisdiction and conditions for referral.

                      
                   •	 Management    Directive (MD) and Directive Handbook (DH) 6.4, Generic
                      Issues Program, provides guidance for the NRC staff to process generic issues,
                      including Unresolved Safety Issues. It also gives an overview of the Generic


6 NRC Office of the Inspector General Semiannual Report to Congress
    Issues Program (GIP); describes the five GIP stages; covers generic issue
    tracking and communication, roles, and responsibilities; and contains a glossary
    of key terms. In 1976, the Commission directed the staff to develop a program
    plan for resolution of generic issues, and in December 1977, the Energy
    Reorganization Act of 1974 was amended to include, among other things, a new
    Section 210, “Unresolved Safety Issues (USIs).” To meet both Commission
    and congressional directives, the staff developed a GIP that provided for the
    identification of generic issues, the assignment of priorities, the development of
    detailed action plans, projections of dollar and manpower costs, continuous high-
    level management oversight of progress, and public dissemination of information
    related to the issues as they progressed.

	OIG reviewed the most recent revision to this document, and offered comments
  to enhance its effectiveness, noting that the timeframes identified within the
  MD, which permit a total time of 15 years for this process, may be excessive. It
  was also suggested that information be included to clarify when a generic issue is
  added to NUREG–0933 (A Prioritization of Generic Safety Issues) and to reformat
  an appended reference chart for additional clarity.

•	 MD
       and DH 4.X, Performance Management, a financial management document,
   was generally comprehensive and well-constructed. However, OIG noted that
   concurrent position titles for the Executive Director for Operations as the Chief
   Operating Officer, and that of the Performance Improvement Officer as the
   Assistant for Operations, needs to be clarified. In addition, it was noted that OIG
   has its own performance management plan, and should therefore be excluded from
   coverage under the MD.

•	 MD
      and DH 4.2, Administrative Control of Funds, provides guidance to allow
   the agency to maintain financial control over the allotment, allocation, and
   obligation of appropriated and apportioned funds to ensure compliance with
   applicable Federal laws, policies, and practices. The guidance is also intended
   to ensure that budgetary resources are best utilized to support program
   requirements to accomplish the agency’s mission. This lengthy directive was
   generally comprehensive; however, OIG noted that the approving official had no
   defined role in the administrative control of funds and suggested that the role of
   the approving official be added. OIG also suggested inclusion of guidance for
   the “bankcard” as it relates to the administrative control of funds.

	OIG also provided comments on issues related to its organizational independence,
  noting the need for exemption from oversight for its reimbursable agreements and
  the agency Chief Financial Officer performance evaluation, as well as documenting
  OIG’s legislative authority to enter into contracts and interagency agreements.
  Additional clarity was suggested with regard to reporting obligations for
  Antideficiency Act violations, and definitions of terms including “non-expenditure
  transfer,” “financial plan line,” “fiscal year,” “IPA,” and “business line.” OIG also
  noted the need for an additional section on 2-year appropriations.


                                                                        October 1, 2013–March 31, 2014   7
                   •	 MD
                         and DH 6.8, Lessons Learned Program, was originally issued to implement an
                      agencywide program to provide reasonable assurance that major organizational
                      problems identified by lessons learned will not recur and that the knowledge
                      gained from lessons learned is retained and disseminated in a manner that will
                      maximize its benefit and usefulness to the staff. OIG comments focused on
                      adding clarity to the directive. OIG suggested specific identification of the
                      office designated by the Executive Director for Operations to manage the lessons
                      learned program and to clarify if event reports and operational experience
                      are intended to be covered by the scope of the directive. OIG also suggested
                      addition of a new item: to recognize the opportunity to obtain potential lessons
                      learned issues from data collection activities already extant within the agency.
                      NRC has a Lessons-Learned Oversight Board and OIG suggested that the
                      board’s membership be identified in the directive handbook. OIG suggested that
                      the offices that are represented should not be limited to technical offices, and
                      noted that administrative offices need to be represented because not all of the
                      past lessons learned have been technical in nature.

                   •	 MD
                          and DH 9.14, Organization and Functions, Office of International Programs, is
                      responsible for guidance in administering the agency’s International Programs and
                      for providing policy advice and assistance to the Chairman, the Commission, and the
                      NRC staff on international issues. As a preliminary comment, OIG advised that it
                      would be helpful to explain the relationship of this management directive and MD
                      5.13, NRC International Activities Practices and Procedures, particularly with regard to
                      licensing activities. Also, OIG identified the need for additional clarity and detail
                      with regard to two functions: “enhances nuclear safety and security through global
                      information exchange partnerships” and “licensing the import and export of nuclear
                      material and equipment,” noting that there was little information on licensing in the
                      directive and handbook. OIG also suggested that the document provide definitions
                      for terms used in the directive.



                   Other OIG General Counsel Activities
                   Support of the Inspector General Community in Training
                   The OIG General Counsel, Maryann Lawrence Grodin, supported the IG
                   Community in training and presentations. The Department of Justice Attorney
                   General guidelines for statutory law enforcement authority for OIG 1811 special
                   agents include the requirement for periodic refresher training on specified legal
                   issues. The Inspector General Criminal Investigator Academy (IGCIA) was tasked
                   with formulating the syllabus for the training and identification of appropriate
                   teaching staff. Ms. Grodin was part of a group of attorneys from several IG offices
                   who constructed a model 3-hour course and participated in training a cadre of
                   attorney-trainers. In addition to coordinating staffing of this training with IGCIA,
                   Ms. Grodin, along with Counsel from the Federal Reserve Board OIG, presented
                   the Civil and Administrative Remedies class as part of the Inspector General Periodic
                   Refresher Training Program in San Diego, California, to agents from a variety of
                   Federal agencies.


8 NRC Office of the Inspector General Semiannual Report to Congress
Other OIG Activities
NRC OIG Recieves Two CIGIE Awards
for Excellence
In October 2013, the Council of the Inspectors General on Integrity and
Efficiency (CIGIE) recognized an OIG audit team and an investigations
team with the prestigious CIGIE Award for Excellence. The Investigation
Team was recognized for exceptional dedication, professionalism, and
teamwork in investigating and reporting concerns pertaining to the
actions of the former NRC Chairman.

The Energy Reorganization Act of 1974 and the Reorganization Plan No. 1 of 1980                   CIGIE Award
                                                                                                  for Excellence in
authorized the NRC Chairman to direct NRC’s response to emergencies. Section 2 of                 Investigations
the Reorganization Plan allows the Chairman to direct the agency’s response as NRC’s              Team.
principal executive officer and to communicate to the public about the response as the official
Commission spokesman. Section 3 of the Reorganization Plan provides special authority
for the Chairman to respond to “an emergency concerning a particular facility or materials
licensed or regulated by the Commission” without consulting with the Commission on matters
that would otherwise require a collegial approach under the Reorganization Plan. Section 3
also gives the Chairman the sole authority to declare the existence of a Section 3 emergency.

Following the March 11, 2011, earthquake off the northeast coast of Japan, a tsunami
caused a crisis at the six-unit Fukushima Dai-ichi Nuclear Power Station in Japan, which
resulted in explosions, core meltdowns, and the release of radioactive material into
the environment. By the evening of March 11, 2011, the former NRC Chairman was
actively involved in monitoring events in Japan and leading the agency response via the
NRC Headquarters Operations Center (HOC), which became the agency’s focal point
for international communications and coordination, analysis, and response during the
emergency. The former NRC Chairman later asked the Commissioners not to visit the
HOC because he viewed it as a distraction.

The investigation team completed this complex investigation, which pertained to the balance
of power between the former NRC Chairman and other Commissioners, the impact of the
former Chairman’s interpersonal interactions on NRC’s workplace environment, and the
accuracy of the former Chairman’s testimony before members of Congress in December 2011.
The investigation, initiated at the request of Congress, was of keen interest to members of
Congress, who were concerned that the former Chairman’s interactions with Commissioners
and agency officials, and public reports of such interactions, were undermining the agency’s
effectiveness and reputation as a competent nuclear regulator.

The investigation team found, in part, that the former NRC Chairman did not exceed
his authorities under the Reorganization Plan in leading the agency’s response to events
in Japan and that the Reorganization Plan does not specifically require the Chairman
to declare the existence of a Section 3 emergency. Moreover, the former NRC General
Counsel interpreted that the Chairman could have used Section 3 authority to respond
to events in Japan, even though the Fakushima Dai-ichi Nuclear Power Station is not
licensed or regulated by the NRC.

The former NRC Chairman resigned shortly after the report’s issuance in June 2012.


                                                                          October 1, 2013–March 31, 2014         9
                                                    The Nuclear Reactor Safety Audit Team was recognized for
                                                    exceptional performance in identifying weaknesses in NRC’s
                                                    implementation of a program intended to ensure that new
                                                    nuclear power plants are constructed in accordance with the
                                                    licensed design. The team consisted of RK Wild, Team Leader;
                                                    Kevin J. Nietmann, Senior Technical Advisor; Jaclyn H. Storch,
                                                    Audit Manager; Timothy Wilson, Senior Management Analyst;
                                                    and Larry J. Weglicki, Senior Auditor.

                                                       Nuclear power plants are being built under the licensing
                                                       process contained in Title 10, Code of Federal Regulations,
                                                       Part 52. The process allows a licensee to obtain a combined
Pictured left to right      construction permit and operating license for reactor designs that have been certified
are Kevin J. Nietmann,      by NRC. Approval to operate requires resolution of design and siting issues before
Senior Technical Advisor;
RK Wild, Team Leader;
                            the start of construction and throughout the construction process. To ensure that the
Timothy Wilson, Senior      facility will be constructed and operated in conformity with the license requirements,
Management Analyst;         a series of inspections, tests, analyses, and acceptance criteria (ITAAC) have been
David C. Lee, Deputy
                            developed. Depending upon the specific reactor design, there may be as many as
Inspector General;
Hubert T. Bell,             1,500 individual ITAACs that must be satisfied prior to operation. These ITAACs
Inspector General;          are performed by the licensee with oversight from NRC.
Stephen D. Dingbaum,
Assistant Inspector
                            The agency conducts sample-based inspections throughout the construction period
General for Audits, and
Larry J. Weglicki, Senior   to verify that the licensee is adequately meeting the requirements of each ITAAC.
Auditor. Not pictured is    Upon completion of each ITAAC, the licensee submits a closure notification, which
Jaclyn H. Storch, Audit     indicates that all acceptance criteria have been satisfactorily met. NRC reviews the
Manager.
                            closure notifications and, when all ITAACs are completed, the Commission will
                            allow the new reactor to begin operating.

                            The purpose of the audit was to assess NRC’s regulatory approach, through
                            the ITAAC review process, to ensure that new nuclear power plants have been
                            constructed and will be operated in conformity with the license, the provisions of the
                            Atomic Energy Act, and the Commission’s rules and regulations.

                            The audit team identified significant opportunities for improvement with regard to
                            (1) guidance, (2) training, (3) IT support, (4) modular components, and (5) agency
                            coordination.

                            Guidance—Agency staff do not uniformly understand how they should apply
                            guidance documents and procedures. Furthermore, there are inconsistent and ad
                            hoc revisions of guidance. Consequently, all staff members may not be performing
                            the ITAAC reviews in accordance with current guidance. This casts doubt on the
                            agency’s ability to ensure that new nuclear power plants have been constructed and
                            will be operated in conformity with the license requirements.




10 NRC Office of the Inspector General Semiannual Report to Congress
Training—Training for staff is improvised and has not been systematically developed
in accordance with the agency’s training development policies or Office of Personnel
Management policies. Specifically, training has not been designed based on a
completed comprehensive training needs assessment. Additionally, current training is
only provided on an ad hoc basis in an uncoordinated manner. Consequently, staff’s
understanding of their roles and responsibilities could be incorrect.

IT Support—The development and deployment of an ITAAC database has been
significantly delayed due to insufficient oversight. The agency has not consistently
applied the policies, principles, and best practices prescribed and endorsed by Federal
guidelines and agency policy for information technology system development and
investment management. Furthermore, the agency has spent approximately $2
million over a period of 5 years and still does not have a fully functional database.
Consequently, the agency’s ability to verify and track licensees’ satisfactory
completion and closure of ITAACs is compromised.

Modular Components—The agency has not developed a formal strategy for
evaluating what inspections at modular assembly facilities are necessary to support
the ITAAC review process. Consequently, staff find it difficult to determine what
systems, structures, and components assembled or manufactured off-site need to be
inspected prior to arrival at the construction site. Without a formal strategy to guide
the evaluation of modular components, the agency may not be identifying safety-
significant problems.

Agency Coordination—The audit team identified a notable lack of sustained
coordination among agency staff during the development and revision of guidance
documents, the creation of the ITAAC database, and the interaction between agency
inspection programs. Consequently, isolated and potentially ill-informed decisions
are being made and actions taken that have the potential to further misalign the
ITAAC process, thereby impacting the degree to which new plants are safely
constructed and operated.

Ultimately, these report findings identify risks in the agency’s ability to gain
assurance that a new nuclear power plant has been constructed and will be operated
in conformity with the license requirements. Public trust in the agency’s ability to
achieve its mission to protect public health and safety and the environment is also
jeopardized.




                                                                        October 1, 2013–March 31, 2014   11
MANAGEMENT AND
PERFORMANCE CHALLENGES
                     Most Serious Management and Performance Challenges
                               Facing NRC as of October 1, 2013*
                                      (as identified by the Inspector General)
                     Challenge 1	Management of regulatory processes to meet a changing environment
                                  in the oversight of nuclear materials.

                     Challenge 2	Management of NRC security programs.

                     Challenge 3	Management of regulatory processes to meet a changing environment
                                  in the oversight of nuclear facilities.

                     Challenge 4	Management of regulatory processes associated with high-level
                                  radioactive waste.

                     Challenge 5	 Management of information technology.

                     Challenge 6	Administration of all aspects of financial management and procurement.

                     Challenge 7	 Management of human capital.

                   *The most serious management and performance challenges are not ranked in any order
                    of importance.




12 NRC Office of the Inspector General Semiannual Report to Congress
AUDITS
To help the agency improve its effectiveness and efficiency during this period, OIG
completed 13 audits, 10 of which are summarized here that resulted in numerous
recommendations to NRC management. In addition, the Defense Contract Audit Agency
completed 2 contract audits for OIG.

Audit Summaries
Survey of NRC’s Support Provided to Resident
Inspectors
OIG Strategic Goal: Safety
NRC is tasked with examining the regulatory compliance and safety of licensed nuclear
facilities. One of the methods that NRC uses to ensure the compliance and safety
of nuclear power plants is conducting inspections. The core of the NRC inspection
program for nuclear power plants is carried out by Resident Inspectors who provide the
major onsite NRC presence for inspection and assessment of licensee performance and
conformance with regulatory requirements.

NRC assigns at least two Residents to each operating nuclear power reactor site.
Residents are also assigned to Category I fuel cycle facilities, gaseous diffusion plants,
and new reactor construction sites. As of October 2013, there were approximately 148
Residents stationed at 67 nuclear facilities. From their remote duty locations, NRC
Resident Inspectors report to assigned regional offices (regions I-IV).

The audit objective was to survey the effectiveness of NRC support provided to
Resident Inspectors at nuclear power plants, fuel-cycle facilities, and construction sites.

Audit Results:
OIG found that the agency generally provides Residents with sufficient support to
enable them to adequately perform their roles and responsibilities. However, there is a
perception among Residents that support from headquarters and the regions is, at times,
inconsistent. By means of a survey instrument,1 OIG learned of a perception among
Residents that headquarters and regional offices are sometimes viewed as disengaged and
unresponsive to Residents’ needs and concerns. These specific areas of concern span
both non-technical and technical types of support.

These perceptions among the Resident staff exist because the agency has not identified
a formal mechanism for obtaining, reviewing, and responding to Residents’ perspectives
regarding the type and level of support they are currently provided. If Residents’
perspectives regarding support-related needs and concerns are not consistently and
appropriately addressed in a timely manner, their ability to perform assigned duties

1
    OIG developed and administered a survey designed to assess Residents’ perspectives on various types of support
    provided to them by the agency. At the time of the survey (March 11-29, 2013), OIG invited 144 Residents
    to participate in the survey. A total of 79 Residents completed the survey for an overall survey response rate of
    approximately 55 percent. Of the 79 completed surveys, 35 Residents also provided multiple written comments.


                                                                                                   October 1, 2013–March 31, 2014   13
                               could be affected. Furthermore, because Residents work remotely, inconsistent and
                               insufficient support also has the potential to perpetuate the feeling among Residents of
                               being disconnected or isolated from the larger NRC. As a result, the morale and level
                               of engagement within the Resident population could be negatively affected.

                               (Addresses Management and Performance Challenge #3 )


                               Audit of NRC’s Process for Addressing Bankruptcy of
                               Materials Licensees
                         Bankruptcy Code
          Table 1: Bankruptcy Code                                                          OIG Strategic Goal: Safety
 Chapter of Bankruptcy                               Definition
         Code
                                                                                              NRC regulates the civilian use of nuclear materials
                         Provides for "liquidation" (i.e., the sale of a debtor's
                         nonexempt property and the distribution of the proceeds to           to protect public health and safety and the
 Chapter 7
                         creditors). The debtor may enter Chapter 7 bankruptcy
                         voluntarily or be forced by creditors to enter it involuntarily.
                                                                                              environment, and to promote the common defense
                                                                                              and security. NRC’s regulatory framework applies
                              Generally used to reorganize a business and allows the          to domestic licenses for civilian uses of radioactive
 Chapter 11                   debtor to continue its business operations by a plan of
                              reorganization with the goal of returning it to a viable state. materials, and these NRC licensees’ financial
Source:Office
        OIG of the Inspector General (OIG) generated from 11 U.S.C. and NUREG 1556, Volume 15
                                                                                              condition (i.e., bankruptcy) could affect the agency’s
Source:
                                    ability to control licensed nuclear materials. Therefore, NRC’s primary interest is
                                    ensuring that control of nuclear materials is maintained during an NRC licensee’s
                                    period of bankruptcy.

                               Federal regulations require that NRC materials licensees immediately notify NRC of
                               a voluntary or involuntary filing of bankruptcy by or against the licensee, or an entity
                               controlling the licensee. Licensees must notify NRC when they file for bankruptcy so
                               NRC can have reasonable assurance that appropriate measures to protect public health
                               and safety have been or will be taken.

                               Once agency staff become aware of a bankrupt materials licensee, an NRC Bankruptcy
                               Review Team (BRT) member will take the lead for the bankruptcy action. Some NRC staff
                               serve as members of the BRT where they review and act on bankruptcy notifications as
                               they occur. The member will keep the appropriate staff informed of the bankruptcy status,
                               and ensure that licensed nuclear material is controlled while a licensee is in bankruptcy
                               status. If appropriate, NRC will conduct a special inspection, use enforcement discretion
                               for issuing enforcement actions, and/or request emergency assistance from other Federal
                               agencies if there is an immediate threat to public health and safety.

                               The audit objective was to determine if NRC has reasonable assurance that appropriate
                               measures to protect the public health and safety have been or will be taken during
                               bankruptcies involving materials licensees.

                               Audit Results:
                               Although NRC licensees are required to report bankruptcies to the agency, most do
                               not and NRC’s alternate ways for discovering bankrupt licensees fall short. Therefore,
                               it is incumbent upon NRC to use effective and efficient methods to identify its
                               bankrupt licensees. NRC has not (1) identified and used comprehensive sources of


14 NRC Office of the Inspector General Semiannual Report to Congress
bankrupt entities, and (2) developed guidance on staff’s role in identifying bankrupt
NRC materials licensees. Consequently, if NRC does not know about bankrupt
materials licensees, the risk increases for nuclear materials to become uncontrolled
and cause harm to the public. Additionally, without formal guidance, NRC staff are
duplicating efforts, thereby wasting valuable agency resources.

(Addresses Management and Performance Challenge #1)


Audit of NRC’s Implementation of Its National
Environmental Policy Act Responsibilities
OIG Strategic Goal: Safety
The National Environmental Policy Act of 1969, as amended (NEPA), established
a national policy to encourage productive and enjoyable harmony between man
and his environment, promote efforts that will prevent or eliminate damage to the
environment and biosphere and stimulate the health and welfare of man, and enrich
the understanding of ecological systems and natural resources. NEPA requires Federal
agencies, as part of their decisionmaking process, to consider the environmental
impacts of actions under their jurisdiction. NEPA is a procedural statute, imposing no
substantive requirements on agencies beyond conducting the environmental review.

NRC’s regulations require preparation of an environmental impact statement for
a license to possess and use source material for uranium milling or production of
uranium hexafluoride. An environmental impact statement is also required to license a
uranium enrichment facility.

The audit objective was to determine whether NRC implements its environmental
review and consultation responsibilities as prescribed by NEPA.

Audit Results:
NRC conducts environmental reviews and prepares environmental impact statements
for certain licensing actions, as required by NEPA. However, for two types of licensing
actions, fuel cycle facilities and uranium recovery facilities, the licensing process lacks
clarity regarding the purpose of the NEPA review. Further, the agency faces challenges
to complete legislatively required consultations regarding historic and cultural resources.
NRC’s ability to overcome these challenges is difficult because the requirements and
definitions for the extent and content of consultations have been established outside NRC.

NRC imposes license conditions for fuel cycle and uranium recovery facilities that do not
meet the intent of the Atomic Energy Act. NRC should impose only license conditions
that are appropriate and necessary to meet the intent of the act. Some license conditions
are imposed because NRC does not have adequate guidance for staff preparing licenses.
When NRC ties these license conditions to the license, licenses contain conditions for
which NRC cannot hold licensees accountable.

(Addresses Management and Performance Challenges #1, 3, and 4)


                                                                          October 1, 2013–March 31, 2014   15
                           Audit of NRC’s Oversight of Active Component Aging
                           OIG Strategic Goal: Safety

  Three Figure
        NRC 1:Maintenance       RuleRule
               Three NRC Maintenance Citations,       2007–2011
                                         Citations, 2007-2011
                                                                                        The Atomic Energy Act and NRC regulations
Date       Plant       Type of Age-Related Failure             Cause
                                                                                        limit commercial nuclear power reactor licenses
2011       Waterford   Electronic control components for       Aging. The
                                                                                        to an initial 40 years. Due to this selected period,
                       cooling towers failed after operating   maintenance to           some components may have been engineered
                       for 25 years.                           replace the
                                                               components was
                                                                                        on the basis of an expected 40-year service
                                                               deleted from             life. However, components that have aged
                                                               preventive
                                                               maintenance              during the 40-year period can have impacts on
                                                               activities.
                                                                                        both the safety and the performance of nuclear
2009       Catawba     Auxiliary feed water sump valves
                       important to plant safety failed.
                                                               Aging. No
                                                               maintenance was
                                                                                        power plants. Components degraded due to
                                                               performed on the         aging have caused reactor shutdowns, failure of
                                                               valves since plant
                                                               startup in 1985.         safety-related equipment, and reduction in the
2007       Brunswick   A relay for controlling an emergency    Aging. The relay’s       safety margin of operating nuclear power plants.
                       diesel generator failed.                coil failed due to the   Therefore, effective and proactive management
                                                               deferral of
                                                               maintenance.             of aging of components is a key element for safe
 Source: IOEB Study
Source: NRC
                                                                                        and reliable nuclear power plant operation.
                           NRC has established commercial nuclear power reactor industry requirements that
                           exclude some components—referred to as active components—from a license renewal
                           aging management review. Active components are those that perform their intended
                           functions with moving parts or a change in state. Examples of active components
                           include power supplies, motors, diesel generators, cooling fans, batteries, relays, and
                           switches. According to NRC, active components are not subject to review as part of
                           NRC’s review of license renewal applications because of the existing regulatory process
                           and existing licensee programs and activities.
                           The NRC Office of Nuclear Reactor Regulation and the regional offices provide
                           regulatory oversight of industry’s active component aging activities. NRC addresses
                           aging active component issues through a number of different regulations and guidance,
                           to include Title 10 Code of Federal Regulations (CFR), Part 50.65, Requirements for
                           monitoring the effectiveness of maintenance at nuclear power plants (the Maintenance
                           Rule, as amended), 10 CFR Part 50, Appendix B, Quality Assurance Criteria for Nuclear
                           Power Plants and Fuel Reprocessing Plants, and 10 CFR 50.36, Technical specifications.
                           The audit objective was to determine if NRC is providing effective oversight of
                           industry’s aging component programs.

                           Audit Results:
                           Oversight of licensees’ activities, including active component aging, should be
                           structured and coordinated. However, NRC’s approach for oversight of licensees’
                           management of active component aging is not focused or coordinated. This approach
                           includes staff-initiated projects and inspection activities using regulations to cite
                           licensees for age-related degradation of active components that are not specific to
                           aging. This challenge is compounded by agency senior managers who are not aware of
                           these uncoordinated activities.
                           This has occurred because NRC has not conducted a systematic evaluation of program
                           needs for overseeing licensees’ aging management for active components since the


16 NRC Office of the Inspector General Semiannual Report to Congress
establishment of the Reactor Oversight Process (ROP) in
2000, and does not have mechanisms for systematic and
continual monitoring, collecting, and trending of age-related
data for active components.
Since the ROP was initiated in 2000, NRC has not conducted
an evaluation and analysis that would systematically
determine whether the need exists for a formal active aging
component oversight program. The most recent evaluation
of the agency’s regulatory oversight of active component aging was in 1996—which            Brunswick Nuclear
pre-dates the ROP—and stressed the importance of aging studies as an important part         Power Plant.
of efforts to identify and solve potential aging problems. In addition, nuclear plants      Source: Progress Energy

have aged almost 20 years since the most recent evaluation of the agency’s regulatory
oversight of active component aging in 1996.
Moreover, NRC has not developed and incorporated within policy and guidance
the existing mechanisms used for systematic and continual monitoring, collecting,
and trending of age-related data for active components. Age-related studies have
emphasized the importance of continual monitoring, collecting, and trending of
age-related data for active components in an ever changing environment. Yet,
NRC has not systematically and continually collected or evaluated age-related data
to determine if a specific oversight program is needed or what type of program
would be necessary. Currently, NRC may identify data on active component aging
intermittently during ROP inspections, but not through any methods of systematic
data collection, analysis, and trending.
Despite NRC management’s belief that active component aging issues are being
satisfactorily addressed, NRC is not in a position to draw any conclusions one way or
the other. If NRC’s unfocused and uncoordinated approach for oversight of licensees’
active component aging activities continues, NRC will not be fully assured that it is
effectively overseeing licensees’ aging active component programs.
(Addresses Management and Performance Challenge #3)


Independent Evaluation of NRC’s Implementation of
the Federal Information Security Management Act for
Fiscal Year 2013
OIG Strategic Goal: Security
On December 17, 2002, the President signed the E Government Act of 2002, which
included the Federal Information Security Management Act (FISMA) of 2002.
FISMA outlines the information security management requirements for agencies,
which include an annual independent evaluation of an agency’s information security
program and practices to determine their effectiveness. This evaluation must include
testing the effectiveness of information security policies, procedures, and practices for
a representative subset of the agency’s information systems. The evaluation also must
include an assessment of compliance with FISMA requirements and related information
security policies, procedures, standards, and guidelines. FISMA requires the annual
evaluation to be performed by the agency’s OIG or by an independent external auditor.

                                                                          October 1, 2013–March 31, 2014         17
                   The objective was to perform an independent evaluation of NRC’s implementation
                   of FISMA for FY 2013.

                   Evaluation Results:
                   While the agency has continued to make improvements in its IT security program
                   and has made progress in implementing the recommendations resulting from
                   previous FISMA evaluations, the independent evaluation identified the following
                   information system security program weaknesses.

                      
                   •	 The agency’s contractor system oversight program is not consistently
                      implemented.

                      
                   •	 There  are two repeat finding from previous FISMA evaluations: (1)
                      configuration management procedures are still not consistently implemented,
                      and (2) the NRC plan of action and milestone program still needs improvement.

                   (Addresses Management and Performance Challenges #2 and 5)



                   Inspector General’s Assessment of the Most Serious
                   Management and Performance Challenges Facing NRC
                   OIG Strategic Goal: Corporate Management
                   On January 24, 2000, Congress enacted the Reports Consolidation Act of 2000,
                   requiring Federal agencies to provide financial and performance management
                   information in a more meaningful and useful format for Congress, the President,
                   and the public. The act requires the Inspector General (IG) of each Federal
                   agency to annually summarize what he or she considers to be the most serious
                   management and performance challenges facing the agency and to assess the
                   agency’s progress in addressing those challenges.

                   Congress left the determination and threshold of what constitutes a most serious
                   management and performance challenge to the discretion of the IGs. NRC OIG
                   has defined serious management and performance challenges as mission critical
                   areas or programs that have the potential for a perennial weakness or vulnerability
                   that, without substantial management attention, would seriously impact agency
                   operations or strategic goals.

                   Based on this definition, the NRC Inspector General identified the following
                   as the most serious management and performance challenges facing NRC as of
                   October 1, 2013:




18 NRC Office of the Inspector General Semiannual Report to Congress
  Most Serious Management and Performance Challenges
            Facing NRC as of October 1, 2013*
                   (as identified by the Inspector General)
  Challenge 1	Management of regulatory processes to meet a changing environment
               in the oversight of nuclear materials.

  Challenge 2	Management of NRC security programs.

  Challenge 3	Management of regulatory processes to meet a changing environment
               in the oversight of nuclear facilities.

  Challenge 4	Management of regulatory processes associated with high-level
               radioactive waste.

  Challenge 5	 Management of information technology.

  Challenge 6	Administration of all aspects of financial management and procurement.

  Challenge 7	 Management of human capital.

*The most serious management and performance challenges are not ranked in any order
 of importance.


The seven challenges are distinct, yet are interdependent to accomplishing NRC’s
mission. For example, the challenge of managing human capital affects all other
management and performance challenges.

The agency’s continued progress in taking actions to address the challenges presented
should facilitate achievement of the agency’s mission and goals

(Addresses All Management and Performance Challenges)



Audit of NRC’s Use of the NEWFlex Program
OIG Strategic Goal: Corporate Management
The U.S. Congress determined “that the use of flexible work schedules has the
potential to improve productivity in the Federal Government and provide greater
service to the public.” Congress and the President signaled their support for flexible
work-life programs by passing the Federal Employees Flexible and Compressed Work
Schedules Act of 1982. Congress amended the act to incorporate a 1994 presidential
memorandum that directed executive agencies to implement work-life balance
initiatives, including flexible work schedules. The memorandum stated, “Broad use



                                                                       October 1, 2013–March 31, 2014   19
                                                     of flexible work arrangements … can increase employee
                                                     effectiveness and job satisfaction, while decreasing
                                                     turnover rates and absenteeism.”

                                                     NRC has implemented increasingly flexible work
                                                     schedule initiatives over a number of years. The agency
                                                     began flexible work schedule pilot programs in 1977. In
                                                     1989, the agency added the compressed work schedule
                                                     option to provide additional alternative work schedule
                                                     choices. In November 2009, NRC implemented
                                                     the NRC Employee Work Schedule Flexibilities
                                                     (NEWFlex) program, adding more features to provide an
Distribution of NRC                                  “environment rich in work-life balance.”
Employees by Work
Schedule for Calendar   The agency tracks employee schedules and biweekly time and attendance reporting
Year 2012.              through the NRC Human Resources Management System.
Source: OIG

                        The audit objectives were to assess (1) NRC’s adherence to applicable laws and
                        regulations, (2) the adequacy of NRC’s internal controls associated with the program,
                        and (3) whether the program adequately addresses unique situations such as drug
                        testing, official travel, and other events.

                        Audit Results:
                        OIG compared applicable laws and regulations to NRC management directives,
                        tested program internal controls, and reviewed internal procedures related to unique
                        situations. OIG determined that, overall, NRC’s administration of NEWFlex
                        complies with applicable laws and regulations, management applies generally adequate
                        internal controls related to NEWFlex time and attendance reporting, and internal
                        procedures adequately address unique situations.

                        However, OIG identified three areas where management could improve administration
                        of the NEWFlex program: (1) NEWFlex information on the intranet site is outdated, (2)
                        NEWFlex training is inadequate, and (3) NEWFlex performance measures are lacking.

                        Without reliable information, some staff lack understanding of certain NEWFlex
                        features and procedures. OIG interviewed 25 employees regarding training and
                        understanding of NEWFlex features and learned that not all supervisors and staff
                        interviewed have received training. For example, 11 of 25 respondents either did
                        not receive or do not recall receiving formal training related to NEWFlex and 6
                        of 25 respondents stated that they lack a good understanding of some NEWFlex
                        features. Without clear NRC Human Resources Management System training, some
                        staff are unsure of the correct format to enter split work schedules (which include
                        non-contiguous hours), resulting in inconsistent and inaccurate entry of such schedules.

                        Furthermore, without up-to-date specific program metrics, the agency cannot
                        determine whether NEWFlex is meeting the goals of enhancing work-life balance
                        and improving recruitment and retention efforts. As a result, not all employees fully
                        understand basic NEWFlex features because they lack mandatory training, and
                        management is unable to monitor the NEWFlex program effectively.

                        (Addresses Management and Performance Challenge #7)


20 NRC Office of the Inspector General Semiannual Report to Congress
Results of the Audit of the United States Nuclear
Regulatory Commission’s Financial Statements for
Fiscal Years 2013 and 2012
OIG Strategic Goal: Corporate Management
The Chief Financial Officers Act of 1990, as amended, requires the Inspector
General or an independent external auditor, as determined by the Inspector General,
to annually audit NRC’s financial statements to determine whether the agency’s
financial statements are free of material misstatement. The audit, conducted by
CliftonLarsonAllen, LLP, under a contract with OIG, includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. It
also includes assessing the accounting principles used and significant estimates made
by management as well as evaluating the overall financial statement presentation.

In addition, the audit evaluated the effectiveness of internal controls over financial
reporting and the agency’s compliance with laws and regulations.

Audit Results:
Financial Statements	
The auditors expressed an unqualified opinion on the agency’s FY 2012 and FY 2013
financial statements.

Internal Controls	
The auditors expressed an unqualified opinion on the agency’s internal controls.

Compliance with Laws and Regulations	
The auditors found no reportable instances of noncompliance/no substantial
noncompliance

(Addresses Management and Performance Challenge #6)



Audit of NRC’s Full-Time Telework Program
OIG Strategic Goal: Corporate Management
The Telework Enhancement Act of 2010 (the Telework Act), was enacted into law
with the goal of ensuring that Federal agencies more effectively integrate telework
into their management plans and agency cultures. The Telework Act defines telework
as a work-flexibility arrangement under which an employee performs the duties
and responsibilities of his or her position from an approved worksite other than the
location from which the employee would otherwise work. A full-time teleworker is
an employee who works 90 percent or more of the time from an alternate worksite,
generally their personal residence.

The Telework Act requires the head of each executive agency to ensure that employees
eligible to telework and managers of teleworking employees receive training on



                                                                          October 1, 2013–March 31, 2014   21
                                                        telework before the employee enters into a written
                                                        telework agreement. However, an employee may be
                                                        exempted from the training requirement by the agency
                                                        head.

                                                     The Work Life and Benefits Branch within NRC’s
                                                     Office of the Chief Human Capital Officer develops,
                                                     coordinates, and implements work-life and benefits
                                                     policies, including full-time telework. Annual full-time
                                                     equivalent usage associated with the administration of the
                                                     agency’s full-time telework program for fiscal years 2013-
                                                     2014 is less than one full-time equivalent (.26) per year.
NRC Full-Time              As of May 9, 2013, NRC had 3,832 total staff with 45 employees engaged in full-time
Teleworkers’ Residential   telework.
Work Sites
Source: OIG
                           The audit objectives were to determine (1) if NRC’s full-time telework program
                           complies with applicable laws and regulations, and (2) the adequacy of internal
                           controls over the program.

                           Audit Results:
                           While NRC’s full-time telework program provides a benefit to the agency and its
                           employees, OIG identified an area of non-compliance with the Telework Act and an
                           internal control weakness.

                           The Agency Is Not Fully Compliant With Training Requirements

                           According to the Telework Act, teleworking employees and their managers must be
                           trained before telework begins unless there is an exemption from the head of the
                           agency. However, NRC is not in full compliance with training requirements in the
                           Telework Act because (1) full-time teleworkers and their managers were not required
                           by the agency to complete mandatory training, (2) the head of the agency did not
                           issue training exemptions, and (3) the agency does not have adequate policy and
                           procedures related to telework training. As a result, staff may not fully understand
                           the telework program and, subsequently, there may be an increased potential for
                           fraud, waste, and abuse.

                           Recordkeeping Internal Controls Need Improvement

                           NRC’s full-time telework records are inconsistent and not maintained in accordance
                           with Federal Government standards or existing agency policies and procedures.
                           Federal Government standards state that agencies should create and maintain records
                           that provide evidence of execution of activities and those records should be readily
                           available for examination. In addition, the agency has guidelines for developing a
                           full-time telework package. However, full-time telework records are inconsistent
                           because agency desk procedures are inadequate and the electronic filing system is not
                           fully implemented. As a result, there is increased potential for fraud, waste, and abuse
                           regarding improper execution of full-time telework agreements.

                           (Addresses Management and Performance Challenge #7)

22 NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Information Technology Governance
OIG Strategic Goal: Corporate Management                           Figure 1:
                                                                          NRCNRC IT OrganizationalStructure
                                                                              IT Organizational    Structure

IT governance is the leadership, structures, and processes
                                                                                   Chairman/Commission
that ensure that an organization’s IT sustains and extends the
organization’s strategies and objectives. Its overall objective is
to ensure that the organization can sustain its operations and
                                                                                    Executive Director for
implement strategies required to meet future objectives using IT.                       Operations
IT governance is necessary to manage information and employ IT
to improve the productivity, effectiveness, and efficiency of agency
programs.                                                                         Deputy Executive Director
                                                                                        for Corporate
                                                                                        Management/
The audit objective was to assess the effectiveness of NRC’s IT                   Chief Information Officer

governance structure in meeting the agency’s current and future
IT needs.
                                                                                Office of
Audit Results:                                                                Information
                                                                                                      Computer
                                                                                                    Security Office
                                                                                Services

NRC’s IT governance is not fully meeting stakeholder needs.
Federal guidance states that proper guidance documentation and Source: OIG                                     Source: OIG
communication are important factors in the success of agency programs. However,
NRC’s IT governance framework and processes have not been effectively documented
and communicated.

During this audit, OIG interviewed 42 of NRC’s management and staff, many of
whom expressed concerns with several areas of NRC’s IT governance process. OIG
found that the most prevailing issue area that stakeholders communicated was a
general lack of confidence in the Office of Information Services’ (OIS) ability to
deliver an acceptable level of customer service. Additionally, confusion surrounding
reassignment of OIS staff roles exists.

NRC may not be able to fully meet the agency’s future IT needs without
comprehensive and communicated documentation of NRC’s IT governance
framework and processes. Specifically, there is a lack of assurance that IT services and
management can be adequately provided to the agency. Some stakeholders believe
that OIS has not provided sufficient customer service and have yet to be convinced
that OIS can be counted upon to deliver an acceptable level of service. As a result,
some stakeholders have been circumventing OIS and the governance process by
approving or creating their own shadow IT systems. This, in turn, creates a less
effective IT governance process which may result in possible IT security breaches,
compliance issues, and investment waste. As a result, NRC may not be able to fully
meet the agency’s future IT needs

(Addresses Management and Performance Challenges #2 and 5)




                                                                        October 1, 2013–March 31, 2014                23
                   Audits in Progress
                   Audit of NRC’s Method for Retaining and
                   Documenting Information Supporting the
                   Yucca Mountain Licensing Process
                   OIG Strategic Goal: Safety
                   In March 2010, the Department of Energy filed a motion with NRC to withdraw its
                   license application for the Yucca Mountain High Level Waste repository. Subsequently,
                   the former NRC Chairman directed staff to take actions to facilitate an orderly closeout
                   of the Yucca Mountain review process, prior to the decision to terminate the agency’s
                   review of the Yucca Mountain application, including documenting material reviewed to
                   date for retention purposes and potential future review in accordance with agency policy.

                   It is the policy of the NRC that all official records made or received by the NRC in the
                   course of its official business comply with the regulations governing Federal records
                   management issued by the National Archives and Records Administration and the
                   General Services Administration. Specifically, agency policy on the retention of records
                   and information states that records are to be maintained and preserved as evidence
                   of the NRC’s organization, functions, policies, decisions, procedures, operations, or
                   other activities. Additionally, agency records are to be maintained in such a way that all
                   information can be stored safely and retrieved easily when necessary.

                   Given the uncertainty and public interest surrounding the issue of high-level waste
                   storage, it is important that NRC maintain agency records related to the review of the
                   Yucca Mountain High Level Waste repository in accordance with Federal requirements
                   and agency policy.

                   The audit objective is to determine if agency policy and procedures on document
                   management are compliant with Federal requirements and provide reasonable assurance
                   that documentation related to the review of the Yucca Mountain facility has been
                   appropriately managed and retained.

                   (Addresses Management and Performance Challenge #4)



                   Audit of NRC’s Task Interface Agreement Process
                   OIG Strategic Goal: Safety
                   The Task Interface Agreement (TIA) process is used to address questions or concerns
                   raised within the NRC regarding nuclear reactor safety and the related regulatory
                   and oversight programs. The process should ensure that the concerns are resolved in
                   a timely manner and that Office of Nuclear Reactor Regulation (NRR) responses are
                   appropriately communicated.



24 NRC Office of the Inspector General Semiannual Report to Congress
A TIA is a written request for technical assistance to NRR from a regional or
program office. A TIA contains questions on subjects involving regulatory or
policy interpretations, specific plant events, or inspection findings. The requesting
organization may use a TIA to obtain information on specific plant licensing
basis; applicable staff positions for an issue, policy, or regulatory requirements
interpretation; NRR technical positions; or the safety/risk significance of plant
configurations or plant operating practices.

Ensuring that adequate, appropriate, and timely feedback is provided to NRC
staff is central to the agency’s mission to protect public health and safety and the
environment.

The audit objective is to determine if the agency’s Task Interface Agreement process
facilitates effective, efficient, and timely responses.

(Addresses Management and Performance Challenge #3)



Audit of NRC’s Oversight of Reciprocity Licensees
OIG Strategic Goal: Safety
In accordance with Section 274 of the Atomic Energy Act, as amended, States may enter
into an agreement with NRC to become Agreement States and assume some regulatory
authority from NRC. Currently, there are 37 Agreement States. These States must first
demonstrate that their regulatory programs are adequate to protect public health and
safety and are compatible with NRC’s program. NRC and Agreement States regulate
the use of nuclear materials for industrial, academic, and medical purposes within the
United States, the District of Columbia, territories and certain “areas of exclusive Federal
jurisdiction” within the Agreement States, and offshore waters.

Some uses of nuclear materials include equipment or services that are mobile, such
as mobile medical equipment, portable gauges, radiography devices, and well logging
equipment. Agreement State licensees that do not also maintain an NRC license can
apply for reciprocity to use nuclear materials in areas of NRC jurisdiction. NRC
recognizes Agreement State licensees to do work in NRC jurisdiction. The agency also
conducts inspections of these licensees according to standards established in Inspection
Manual 1220. Additionally, the agency takes enforcement sanctions against Agreement
State licensees who fail to request reciprocity and violate NRC regulations while
conducting activities in NRC jurisdiction.

The audit objective is to determine whether NRC provides adequate oversight to
materials licensees operating under reciprocity.

(Addresses Management and Performance Challenge #1)




                                                                            October 1, 2013–March 31, 2014   25
                   Audit of NRC’s Cyber Security Inspection Program
                   for Reactors
                   OIG Strategic Goal: Security
                   NRC has required all nuclear power plant licensees to have a cyber security plan
                   to protect their digital computer and communication systems associated with
                   safety, security, and emergency preparedness related functions. Title 10, of the
                   Code of Federal Regulations, Section 73.54, “Protection of Digital Computer
                   and Communication Systems and Networks,” provides licensees with the specific
                   requirements. Additionally, both NRC and the Nuclear Energy Institute have issued
                   supplemental guidance documents to assist licensees in understanding and complying
                   with the cyber security requirements.

                   NRC initiated inspections of licensee compliance with cyber security requirements
                   beginning in January 2013. NRC finalized the inspection guidance and significance
                   determination process for evaluating any potential violations.

                   The audit objective is to determine the adequacy of NRC’s cyber security inspection
                   program for reactors.

                   (Addresses Management and Performance Challenge #2)



                   Audit of NRC’s Communications Security (COMSEC)
                   Program
                   OIG Strategic Goal: Security
                   NRC relies upon secure systems to protect agency communications against breaches
                   that might compromise sensitive information. Communications security (COMSEC)
                   systems include secure telephones, facsimile machines, and video-teleconference
                   networks that process classified or sensitive but unclassified information. COMSEC
                   equipment is used at NRC headquarters, regional offices, and resident inspector
                   offices, and select personnel are delegated responsibility for managing this
                   equipment. COMSEC management entails accountability for sensitive items, as well
                   as maintenance tasks such as system testing and encryption updates.

                   The audit objective is to determine whether NRC staff manage COMSEC systems
                   in accordance with NRC and higher-level Federal Government COMSEC policies.

                   (Addresses Management and Performance Challenge #2)




26 NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Process for Revising Management
Directives
OIG Strategic Goal: Corporate Management
The NRC Management Directives (MD) System is the official vehicle used by
the agency to communicate agency policy, objectives, responsibilities, authorities,
requirements, guidance, and related information to NRC employees. MDs do not
propose new policy; rather, they reflect policy decisions already made and provide
the process and guidance for implementing that policy. NRC issues MDs, as well
as revisions, to meet the requirement that all Federal agencies have an internal MD
system. Currently, there are 163 MDs covering 14 areas of agency operations.

MD 1.1, NRC Management Directives System, addresses the requirements for
maintenance of MDs. This MD provides that, at least every 5 years, MDs must be
reviewed and reissued or certified as still relevant.

The Office of Administration provides oversight for and develops and administers
the MD system, including the issuance of approved policies and procedures, the
provision of advice and guidance, and the review of its operation and effectiveness.

The audit objective is to evaluate the adequacy of NRC’s compliance with MD
1.1, particularly in the areas of keeping MDs accurate and up-to-date, and whether
opportunities exist to improve the process.

(Addresses Management and Performance Challenge #7)



Audit of NRC’s Freedom of Information Act Process
OIG Strategic Goal: Corporate Management
The Freedom of Information Act (FOIA) of 1966 protects the rights of the public to
information and makes provisions for individuals to obtain information from Federal
agencies.

Enacted on July 4, 1966, and taking effect 1 year later, FOIA provides that any person
has a right, enforceable in court, to obtain access to Federal agency records, except to
the extent that such records (or portions of them) are protected from public disclosure
by one of nine exemptions or by one of three special law enforcement record exclusions.

The act explicitly applies only to executive branch Government agencies. These
agencies are under several mandates to comply with public solicitation of information.
Along with making public and accessible all bureaucratic and technical procedures
for applying for documents from that agency, agencies are also subject to penalties for
hindering the process of a petition for information.

In 2009, President Obama issued a memorandum for the heads of executive
departments and agencies stating that Government should be transparent and urging

                                                                         October 1, 2013–March 31, 2014   27
                   agencies to harness new technologies to make information about their operations
                   and decisions readily available to the public and to solicit public feedback to identify
                   information of greatest use to the public.

                   The audit objective is to determine whether the FOIA process is efficient and complies
                   with the current laws.

                   (Addresses Management and Performance Challenge #7)



                   Audit of NRC’s Process for Prioritizing Technical
                   Contract Work Under Sequestration
                   OIG Strategic Goal: Corporate Management
                   To meet its mission, NRC enters into a wide variety of agreements each year with
                   commercial firms, non-profit organizations, and universities. NRC buys a broad range
                   of products and services, including technical assistance and research in nuclear fields,
                   information technology, facility management, and administrative support.

                   In March 2013, President Obama issued a sequestration order canceling approximately
                   $85 billion in budgetary resources across the Federal Government for the remainder of the
                   fiscal year. The same month, the President signed Public Law 113-6—The Consolidated
                   and Further Continuing Appropriations Act, 2013—which provided NRC appropriations
                   for the remainder of FY 2013 at the FY 2012 levels subject to a 5 percent ($52 million)
                   reduction imposed by the sequestration order and a 0.2 percent ($2 million) rescission
                   imposed by the Office of Management and Budget. In response to the order and law, NRC
                   notified some current service providers of the possibility that the work being performed for
                   NRC may be cancelled, modified, or postponed.

                   The audit objective is to evaluate the process NRC uses to determine which technical
                   contracts and agreements are subject to sequestration.

                   (Addresses Management and Performance Challenges #3 and 6)



                   Audit of NRC’s Fee Invoicing and Internal
                   Reconciliation Processes
                   OIG Strategic Goal: Corporate Management
                   The Chief Financial Officer’s Act (CFO Act) of 1990, as amended, aimed to bring
                   more effective financial management to the Federal Government and provide
                   decisionmakers with complete, reliable, and timely financial information. The
                   Independent Offices Appropriation Act requires NRC to charge fees to cover the
                   costs of specific goods and services provided to the public. The Omnibus Budget



28 NRC Office of the Inspector General Semiannual Report to Congress
Reconciliation Act of 1990, as amended, requires that NRC recover approximately 90
percent of its budget authority by collecting fees from its applicants and licensees.

Numerous NRC Management Directives support fee analysis, assessment, and
collection requirements.

The audit objective is to determine whether NRC has established and implemented
an effective system of internal control over the recordation and reconciliation of fee
revenue.

(Addresses Management and Performance Challenge #6)



Audit of NRC’s FY 2014 Financial Statements
OIG Strategic Goal: Corporate Management
Under the Chief Financial Officers Act and the Government Management and
Reform Act, OIG is required to audit the financial statements of the NRC. The
report on the audit of the agency’s financial statements is due on November 15, 2014.
In addition, OIG will issue reports on:

•	 Special Purpose Financial Statements.

•	 Implementation of the Federal Managers’ Financial Integrity Act.

•	 Condensed Financial Statements.

•	 Compliance with the Improper Payments Elimination and Recovery Act of 2010.

The audit objectives are to:

•	 Express opinions on the agency’s financial statements and internal controls.

•	 Review compliance with applicable laws and regulations.

   
•	 Review  the controls in NRC’s computer systems that are significant to the
   financial statements.

   
•	 Assess the agency’s compliance with Office of Management and Budget Circular
   A-123, Revised, Management’s Responsibility for Internal Control.

   
•	 Assess agency compliance with the Improper Payments Elimination and
   Recovery Act of 2010.

(Addresses Management and Performance Challenge #6)




                                                                        October 1, 2013–March 31, 2014   29
                   INVESTIGATIONS
                   During this reporting period, OIG received 103 allegations, initiated 21 investigations,
                   and closed 36 cases. In addition, OIG made 15 referrals to NRC management and 5 to
                   the Department of Justice.

                   Investigative Case Summaries
                   NRC Oversight of Decommissioning Activities at the
                   Shallow Land Disposal Area Consistent with U.S. Army
                   Corps of Engineers Memorandum of Understanding
                   OIG Strategic Goal: Safety
                   OIG conducted an investigation in response to a letter from Pennsylvania Senator
                   Robert P. Casey, Jr., to OIG requesting answers to seven questions concerning the
                   Shallow Land Disposal Area (SLDA) in Armstrong County, PA. Between 1961 and
                   1970, the Nuclear Material and Equipment Corporation (NUMEC), an Atomic
                   Energy Commission (AEC)2 licensee, buried low-level wastes from its Apollo Fuel
                   Fabrication Facility at SLDA. Apollo operations included small-scale production
                   of high- and low-enriched uranium and thorium fuel for commercial nuclear
                   power plants and U.S. Navy propulsion reactors, scrap recovery, and research and
                   development. Based on official records, Apollo was the only source of the waste
                   buried in SLDA.

                   SLDA is undergoing remediation under the Formerly Utilized Sites Remedial
                   Action Program (FUSRAP).3 Under this arrangement, the U.S. Army Corps of
                   Engineers (USACE) is currently in charge of the site, with cooperation from
                   NRC and other Federal partners. A July 5, 2001, Memorandum of Understanding
                   (MOU) describes how NRC and USACE are to work together to meet their
                   respective statutory responsibilities at SLDA and several other sites. With regard to
                   SLDA, USACE’s role is to administer and execute cleanup at the SLDA site to meet
                   NRC decommissioning requirements of 10 CFR 20.1402, “Radiological Criteria for
                   Unrestricted Use,” and NRC is responsible for ensuring the cleaned up site meets
                   its decommissioning requirements before terminating SLDA’s license.

                   Per the MOU, for USACE to initiate remediation work on an NRC-licensed
                   FUSRAP site, NRC needs to suspend the license while remediation is underway.
                   Although NRC accepted USACE’s Work Plans for remediating SLDA in July
                   2011 and issued a confirmatory order to suspend the SLDA license in August
                   2011 – and USACE assumed physical possession of the site on August 22, 2011,


                   2
                       Prior to NRC’s establishment, the AEC had responsibility for the development and production of nuclear weapons
                       and for the development and safety regulation of civilian uses of nuclear materials. The Energy Reorganization
                       Act of 1974 split these functions, assigning to one agency, now the Department of Energy, the responsibility for the
                       development and production of nuclear weapons, promotion of nuclear power, and other energy-related work, and
                       assigning to NRC regulatory authority over civilian uses of radioactive materials.
                   3
                       The AEC established FUSRAP to clean up residual radioactivity from the early years of the Nation’s atomic
                       energy program.


30 NRC Office of the Inspector General Semiannual Report to Congress
and subsequently began remediation activities – cleanup efforts were halted on
September 30, 2011, and have yet to resume.

Senator Casey’s questions focused on NRC’s past oversight of SLDA to ensure
compliance with waste burial and decommissioning requirements and on NRC’s
involvement in the current SLDA remediation effort.

Investigative Results:
OIG’s investigation into Senator Casey’s questions did not identify evidence from
available AEC inspection reports suggesting SLDA was non-compliant with AEC
burial requirements4 in effect during the time SLDA was being used as a low level
waste burial site. However, OIG found indirect evidence through review of other
official documents and burial records that indicated noncompliance with 10 CFR
20.304 (Disposal by Burial in Soil) may have occurred.

OIG found that missing and/or incomplete AEC inspection records and incomplete
burial records preclude (1) a definitive assessment of whether SLDA burials were
compliant with disposal requirements, (2) an assessment of AEC’s oversight of
SLDA’s compliance with disposal requirements, and (3) the Government’s ability to
know with certainty what is buried on the SLDA site and in what precise locations.
Moreover, according to the president and founder of NUMEC, the company that
buried materials at the SLDA site, the documents used as a basis for the current
FUSRAP remediation effort grossly underestimate the material buried there.

With regard to decommissioning of SLDA, OIG found that while the
decommissioning process for SLDA was not initiated until 1993 – roughly 23 years
after the site reportedly stopped being used for burial – this far exceeded the 2-year
goal set by NRC’s current decommissioning regulations. Additionally, the licensee
has demonstrated compliance with evolving decommissioning requirements since
1988 when NRC promulgated its first comprehensive decommissioning regulations.
Based on a review of available records, OIG found that NRC provided oversight
of SLDA decommissioning from the point at which SLDA burials were reportedly
stopped in 1970 to the suspension of SLDA’s licensee in 2011 for USACE to initiate
site remediation.

With regard to the current FUSRAP remediation effort, OIG found that the
remediation of SLDA, which began in August 2011, was halted within 1 month
because the USACE contractor did not follow the remediation procedures, resulting
in a safety concern. This was followed by the discovery of unexpected “complex
material” that needed to be characterized and removed from the site before
remediation could resume. Although the “complex material” was characterized and

4
    Burials at SLDA were required to comply with the provisions of AEC regulation Title 10, Code of Federal
    Regulations, 20.304 (10 CFR 20.304), “Disposal by Burial in Soil,” which provided general authority to licensees
    to dispose of radioactive materials by burial in soil. 10 CFR 20.304 permitted burial of specific quantities of
    licensed and other radioactive materials at any one location and time. The only disposal standards specified were
    (1) burial at a minimum depth of 4 feet, (2) successive burials separated by at least 6 feet, and (3) not more than
    12 burials per year.


                                                                                                   October 1, 2013–March 31, 2014   31
                   removed by June 2012, remediation efforts remain halted while the Federal agencies
                   involved in the cleanup coordinate a new remediation approach.

                   OIG found that NRC does not have performance metrics to facilitate timely
                   remediation of SLDA, and it is NRC staffs’ understanding that the agency lacks
                   regulatory enforcement authority while SLDA is under USASE’s purview for
                   remediation. However, NRC staff said they have informal goals and methods for
                   keeping track of NRC actions relative to the remediation effort. Moreover, they
                   said, the ultimate “performance measure” will be NRC’s verification that SLDA has
                   been cleaned up to meet the agency’s regulatory standards for unrestricted use.

                   OIG did not identify any evidence suggesting the agency has not fulfilled its
                   obligations under the 2001 MOU between NRC and USACE for the cleanup
                   of SLDA and found that NRC reviewed and accepted USACE’s SLDA Work
                   Plans pertinent to criticality safety, physical security, and material control and
                   accounting of special nuclear material prior to initiation of the cleanup effort. In
                   hindsight, however, an NRC staff member told OIG that the Work Plans that NRC
                   accepted in July 2011 could not address the complex material encountered as it was
                   beyond the scope of the USACE contractor’s equipment, laboratory capabilities,
                   and expertise. The staff member anticipates that a supplemental MOU and
                   significantly revised Work Plans will need to be developed before remediation is
                   resumed. Although NRC’s Web site anticipates the closure date for SLDA will be
                   2020, the staff member did not think this was still a valid date. The staff member
                   did not estimate when remediation activities might be complete, but thought the
                   supplemental MOU would be signed in 2014.

                   (Addresses Management and Performance Challenge #1)



                   NRC Staff Handling of Regulatory Action in
                   Examining and Mitigating Possible Flood Hazards at
                   the Oconee Nuclear Station
                   OIG Strategic Goal: Safety
                   OIG completed an investigation into whether NRC staff took too long in
                   examining and working to mitigate possible flood hazards to the Oconee Nuclear
                   Station (ONS) in Seneca, South Carolina. OIG interviewed multiple NRC staff
                   and examined staff actions since 2006 to identify and mitigate possible flood hazards
                   at ONS. OIG found that the identification of potential flood hazards came from
                   a 2006 inspection finding concerning the Safe Shutdown Facility. In response to
                   this inspection finding, the NRC issued a 10 CFR 50.54(f) letter in August 2008
                   requesting information from ONS’ operator, Duke Energy. OIG learned that NRC
                   staff requested additional analysis from the company multiple times to provide a
                   more accurate estimate of flooding at ONS caused by any potential dam failure.
                   In response to these regulatory requests, Duke provided 15 interim compensatory
                   measures (ICMs) to mitigate possible flood hazard, with implementation dates.


32 NRC Office of the Inspector General Semiannual Report to Congress
OIG also learned that the NRC issued a Confirmatory Action Letter to Duke in
June 2010, confirming the ICMs, and required the licensee to submit a list of all
necessary modification to mitigate flood hazards. Duke provided the list as required
and committed to a timeline of 30 months plus the regulatory review period after
NRC approves the use of Federal Energy Regulatory Commission (FERC) design
standards for proposed flood walls. In September 2012, the NRC approved the use
of FERC standards for flood walls.

Investigative Results:
OIG found that concurrent to this regulatory process concerning ONS, NRC staff
initiated Generic Issue (GI) 204 concerning the effect of dam failures on nuclear plants.
Additionally, in March 2011, NRC responded to the Fukushima nuclear plant incident
by reexamining certain vulnerabilities at all U.S. nuclear plants. Accordingly, the
GI-204 issue was merged with the Fukushima response required of all plants. Since
ONS was required to submit a flooding hazard report to the NRC by March 2013
under the regulatory framework arising from Fukushima, NRC gave Duke the option
to initiate the agreed upon 30-month timeline following the submittal of that report,
with all essential modification completed no later than June 2016.

OIG determined that multiple Federal agencies have regulatory responsibilities
for ONS and the surrounding energy structures. NRC primarily coordinated
with FERC, who has regulatory responsibility for the Oconee and Jocasee dams,
concerning all actions proposed by Duke to ensure that both agencies’ regulatory
standards were being met. OIG also determined that even after NRC completes
its scientific evaluation of Duke’s responses to mitigate flooding hazards under the
Fukushima regulatory framework, NRC’s analyses will need to be presented to
other affected Federal partners and the Interagency Committee on Dam Safety for
review and approval.

Accordingly, OIG found no administrative wrongdoing or substantial regulatory
delay in how the NRC staff examined flood hazards to ONS or in the regulatory
framework put in place to require ONS to mitigate the scientifically-accepted flood
hazard at the plant.

(Addresses Management and Performance Challenge #3)



Misuse of FOIA Exemption Rules by NRC
OIG Strategic Goal: Corporate Management
OIG conducted an investigation into an allegation that the NRC staff intentionally
mischaracterized safety related information as sensitive security information in
an effort to conceal the information from the public in response to a Freedom of
Information Act (FOIA) request. The FOIA request pertained to NRC Generic
Issue 204, Flooding of U.S. Nuclear Power Plants Following Upstream Dam
Failure. According to the allegation, the information redacted from the NRC


                                                                         October 1, 2013–March 31, 2014   33
                   document was relevant to the safety of U.S. nuclear power plants and should not
                   have been redacted.

                   Investigative Results:
                   OIG interviewed the NRC staff who authored the report, managers responsible
                   for deciding what information in the report was determined to be sensitive, and
                   FOIA branch staff familiar with the FOIA request. The NRC manager responsible
                   for deciding what information in the report would be determined sensitive
                   communicated with internal staff as well as the licensee and other Federal entities
                   that provided criteria as to what information they viewed as security sensitive and
                   warranting redaction.

                   OIG did not identify any misuse of the FOIA processes or exemptions, or efforts to
                   withhold information from the public. OIG found that NRC staff redacted the GI
                   204 report for security-based reasons after considering the views of various parties
                   within NRC and external entities that contributed to the report. OIG found that
                   the FOIA exemptions used to justify the redactions were consistent with an Office
                   of the General Counsel (OGC) interpretation of the use of FOIA exemptions to
                   protect security related information and that OGC reviewed and concurred with
                   the exemptions used in the GI 204 report.

                   (Addresses Management and Performance Challenge #7)



                   Alleged Chilled Work Environment and Retaliation
                   by NRC Management Due to Technical Disagreements
                   Pertaining to TVA Plants
                   OIG Strategic Goal: Corporate Management
                   OIG conducted an investigation into allegations pertaining to the handling of safety
                   concerns by NRC management. NRC staff alleged that NRC management’s actions
                   related to the handling of safety concerns pertaining to a potential flooding event at
                   Tennessee Valley Authority’s (TVA) Watts Bar Nuclear Plant had been retaliatory and
                   had created a chilled and hostile work environment within their division. According
                   to certain NRC staff members, they (1) were constantly challenged and obstructed for
                   raising a safety concern, (2) were constrained for having a questioning attitude, and
                   (3) faced hostility and threat of retaliation for their persistence. Also, another concern
                   was that the NRC branch involved in the TVA Watts Bar flooding issue was dissolved
                   as a result of the disagreement over the handling of the safety concerns.

                   OIG learned that on March 12, 2012, a document referred to as the Fukushima
                   letter was sent to all nuclear power plant licensees and holders of construction
                   permits in active or deferred status. The letter informed them that NRC would
                   be issuing 10 CFR 50.54(f) letters to all licensees requesting that they reevaluate
                   the seismic and flooding hazards at their sites using updated seismic and flooding


34 NRC Office of the Inspector General Semiannual Report to Congress
hazard information and present daily regulatory guidance and methodologies and, if
necessary, that they perform a risk evaluation.

Between April 6 and May 29, 2012, NRC management and staff were trying to
resolve an issue of whether a supplemental 50.54(f) letter to the “Fukushima letter”
was needed to obtain information from TVA regarding hydrology issues for the
Watts Bar Unit 1. NRC management felt that whatever information NRC staff
sought from TVA could be obtained through the Fukushima letter. However,
NRC staff had authored a supplemental draft 50.54(f) letter to TVA that was being
circulated for concurrence without management’s knowledge. NRC staff notified
management on April 6, 2012, that their supplemental letter was in concurrence.
An NRC manager subsequently told staff to take the supplemental letter out
of concurrence because management was not in alignment with the view that a
supplemental 50.54(f) letter was needed.

Investigative Results:
OIG did not substantiate that NRC management retaliated against the staff for
raising safety concerns. Two of the seven staff members interviewed by OIG
disagreed with and expressed concerns related to NRC management’s handling of
their safety concerns relative to a potential flooding event at TVA plants; a third (a
supervisor) reported being denied another branch chief position because he could
not control his staff; and four stated they did not perceive any retaliation or a chilled
working environment.

OIG found that the NRC manager instructed the NRC staff not to send a 50.54(f)
letter to TVA after learning that there was no immediate safety concern. OIG also
found that NRC management decided to dissolve the branch involved in the TVA
Watts Bar issue when the effort on the project reduced significantly in scope, at
which point the staff members were transferred to other NRC divisions or branches,
and that the decision to dissolve the branch preceded the disagreement over the
50.54(f) letter.

(Addresses Management and Performance Challenge #7)



Potential Abuse of Telework and Travel Procedures by
NRC Employee
OIG Strategic Goal: Corporate Management
OIG completed an investigation into an anonymous concern that NRC was wasting
funds by paying travel related and per diem expenses for an NRC employee to
work in NRC headquarters one week a month while the employee was in full-time
telework status in another state.

The NRC telework program has a provision that allows employees to work from
home or remote locations on a full time basis. In accordance with this allowance,


                                                                         October 1, 2013–March 31, 2014   35
                   the employee’s duty station is then changed to reflect his or her telework location. The
                   employee receives a pay rate based on his or her locality and the employee is entitled
                   to receive travel and per diem when returning to NRC offices for work purposes.
                   Employees must submit a completed telework package through their supervisor to
                   be approved for telework. The NRC Chief Human Capital Officer makes the final
                   determination to allow an employee to be a full-time telework employee.

                   Investigative Results:
                   OIG reviewed travel vouchers submitted by the employee and identified more than
                   $17,000 in travel related expenses for a one year period for the employee to come to
                   NRC headquarters while in full time telework status. OIG reviewed the employee’s
                   full-time telework agreement, which was approved by NRC and found that the
                   employee was approved to telework from August 2011 – August 2018. Under the
                   agreement, the employee was to work at NRC headquarters one or two weeks per
                   month, with additional time at NRC headquarters at the discretion of his supervisor.
                   Subsequently, following an interview with OIG, the employee terminated the telework
                   agreement and returned to NRC headquarters.

                   During the investigation, OIG reviewed 50 full-time telework agreements that
                   were processed from 2005 through January 2013, to identify potential abuse or
                   issues regarding the NRC Full-Time Telework Program. OIG also compared the
                   agreements to the employees’ official travel records to determine the amount of travel
                   employees incurred traveling from their residence (full-time telework location) to
                   their NRC office while in the NRC Full-Time Telework Program.

                   Review of the full-time telework agreements disclosed the following issues:

                   •	      There was no consistent format for the telework agreement memorandums.

                   •	      
                           Twenty-one  of the 50 full-time telework agreements did not have a length of
                           agreement listed.

                   •	      Three agreements listed “indefinite” for length of agreement.

                   OIG reviewed the travel vouchers of the full-time telework employees to identify
                   travel back to the employee’s assigned headquarters office or region while in a
                   full-time telework status. OIG noted that two full-time telework employees spent
                   more than $6,000 and $8,000, respectively, in NRC funds to travel back to NRC
                   headquarters from May 2012 to January 2013. A third employee spent more than
                   $8,000 to travel back to NRC headquarters from April 2012 to January 2013, while
                   in full-time telework status. A fourth employee, who has been on full-time telework
                   status since November 2011, has spent more than $15,000 in travel funds to travel to
                   NRC Headquarters for official work.

                   While OIG did not identify misconduct associated with this investigation, this matter was
                   referred to OIG Audits, which initiated an audit into the NRC full-time telework program.

                   (Addresses Management and Performance Challenge #7)


36 NRC Office of the Inspector General Semiannual Report to Congress
  SUMMARY OF OIG ACCOMPLISHMENTS
  October 1, 2013, through March 31, 2014

  Investigative Statistics
  Source of Allegations
                    NRC Employee                               28

                 NRC Management                      15

         Other Government Agency       2

                     General Public                        24

           OIG Proactive Initiatives    3
                 Regulated Industry    2
                        Anonymous                    16
                         Intervenor         6
                      Congressional    1

                         Contractor         6


                              Allegations resulting from Hotline calls: 45 Total: 103




  Disposition of Allegations

                              Total                                                               103
             Closed Administratively                                  52

     Referred for OIG Investigation                       18

Referred to NRC Management and Staff                 15

             Pending Review Action         5

         Correlated to Existing Case            11

           Referred to Other Agency    2




                                                                      October 1, 2013–March 31, 2014   37
                   Status of Investigations
                   DOJ Referrals  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
                   DOJ Acceptance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .0
                   DOJ Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .0
                   DOJ Declinations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .5
                   Criminal Convictions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                   Criminal Penalty Fines  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                   NRC Administrative Actions:
                   	       Counseling and Letter of Repremand .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .2
                   	       Terminations and Resignations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .2
                   	       Suspensions and Demotions .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1		
                   	       Other (Letter from Chairman and Review of Policy) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .2
                   State Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
                   State Declinations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
                   State Accepted .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                   PFCRA5 Referral .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .4
                   PFCRA Acceptance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                   PFCRA Declanations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4

                   Summary of Investigations
                   Classification of 		          Opened 	 Closed 	 Cases in
                   Investigations	     Carryover	 Cases	 Cases	Progress
                   Employee Misconduct 	                                                27	                  9	               24 	             12
                   Event Inquiry	                                                         2	                 0	                 2	               0
                   External Fraud	                                                        6	                 0	                 0	               6
                   False Statements	                                                      2	                 1	                 0 	              3
                   Management Misconduct	                                               17	                  7	                 7	             17
                   Miscellaneous	                                                         2	                 1	                 0	               3
                   Proactive Initiatives	                                               10	                  0	                 1	               9
                   Technical Allegations	                                                 4	                 2	                 2	               4
                   Theft	                                                                 0	                 1	                 0	               1
                   	 	 Grand Total	                                                    70	                 21	               36	               55

                   5
                       Program Fraud Civil Remedies Act.



38 NRC Office of the Inspector General Semiannual Report to Congress
Audit Listings
Date           Title                                                  Audit Number

10/02/2013	 Inspector General’s Assessment of the Most Serious	       OIG-14-A-01
		          Management and Performance Challenges Facing
		NRC

10/28/2013	   Audit of NRC’s Oversight of Active Component Aging	 OIG-14-A-02

11/22/2014	   Independent Evaluation of NRC’s Implementation of	      OIG-14-A-03
		            the Federal Information Security Management Act
		            for Fiscal Year 2013

12/09/2013	   Audit of NRC’s Information Technology Governance	       OIG-14-A-04

12/11/2013	   Audit of NRC’s Full-Time Telework Program		             OIG-14-A-05

12/09/2013	   Results of the Audit of the United States Nuclear	      OIG-14-A-06
		            Regulatory Commission’s Financial Statements
		            for Fiscal Years 2013 and 2012

12/17/2013	   Independent Auditors’ Report on the U.S. Nuclear	     OIG-14-A-07
		            Regulatory Commission’s Closing Package Financial
		            Statements as of September 30, 2013 and 2012, and for
		            the Years then Ended

12/19/2-13	   Audit of NRC’s Use of the NEWFlex Program		             OIG-14-A-08

12/24/2013	   Audit of NRC’s Implementation of Its National		         OIG-14-A-09
		            Environmental Policy Act Responsibilities

01/16/2014	   Audit of NRC’s Process for Addressing Bankruptcy	       OIG-14-A-10
		            of Materials Licensees

02/25/2014	 Audit of NRC’s Implementation of the Federal		            OIG-14-A-11
		          Managers’ Financial Integrity Act for Fiscal
		Year 2013

03/18/2014	 Survey of NRC’s Support Provided to Resident		            OIG-14-A-12
		Inspectors

03/21/2014	   Transmittal of the Independent Auditor’s Report on	     OIG-14-A-13
		            Condensed Financial Statements



                                                                    October 1, 2013–March 31, 2014   39
         Contract Audit Reports
         OIG 	           Contractor/Title/	                              Questioned	   Unsupported
         Issued Date	    Contract Number	                                Costs	        Costs
         03/19/2014      Southwest Research Institute                    0             0
                         Independent Audit of Adequacy and
                         Compliance of Southwest Research
                         Institute’s Disclosure Statement, Revision 4,
                         Effective October 1, 2010
                         NRC-02-04-014
                         NRC-02-06-018
                         NRC-02-06-021
                         NRC-02-07-006
                         NRC-03-09-070
                         NRC-03-10-066
                         NRC-03-10-070
                         NRC-03-10-078
                         NRC-03-10-081
                         NRC-04-07-108
                         NRC-04-10-144
                         NRC-41-08-004
                         NRC-41-09-011
                         NRC-HQ-11-C-03-0047
                         NRC-HQ-11-C-03-0058

         03/19/2014      Southwest Research Institute
                         Independent Audit of Adequacy and
                         Compliance of Southwest Research Institute’s    0             0
                         Disclosure Statement, Revision 5,
                         Effective October 1, 2011
                         NRC-02-04-014
                         NRC-02-06-018
                         NRC-02-06-021
                         NRC-02-07-006
                         NRC-03-09-070
                         NRC-03-10-066
                         NRC-03-10-070
                         NRC-03-10-078
                         NRC-03-10-081
                         NRC-04-07-108
                         NRC-04-10-144
                         NRC-41-08-004
                         NRC-41-09-011
                         NRC-HQ-11-C-03-0047
                         NRC-HQ-11-C-03-0058




40 NRC Office of the Inspector General Semiannual Report to Congress
Audit Resolution Activities
TABLE I
OIG Reports Containing Questioned Costs6
	                                                                              	      Questioned	Unsupported
	                                                                          Number of	   Costs	      Costs
Reports	                                                                    Reports	 (Dollars)	(Dollars)

A. 	 For which no management decision
     had been made by the commencement
     of the reporting period	                                                     0	                           0	           0

B. 	 Which were issued during the reporting
     period	                                                                      0	 0	0

	          Subtotal (A + B)	                                                      0	 0	0	

C. 	 For which a management decision was
     made during the reporting period:	

	          (i) dollar value of disallowed costs	                                  0	                           0	           0	

	          (ii) dollar value of costs not disallowed	                             0	                           0	           0	

D. 	 For which no management decision had
     been made by the end of the reporting period	                                0	                           0	           0




6
    Questioned costs are costs that are questioned by OIG because of an alleged violation of a provision of a law,
    regulation, contract, grant, cooperative agreement, or other agreement or document governing the expenditure of
    funds; a finding that, at the time of the audit, such costs are not supported by adequate documentation; or a finding
    that the expenditure of funds for the intended purpose is unnecessary or unreasonable.



                                                                                                   October 1, 2013–March 31, 2014   41
                 TABLE II
                 OIG Reports Issued with Recommendations
                 That Funds Be Put to Better Use7
                 	                                                                                 Number of	                Dollar Value
                 Reports	                                                                           Reports	                  of Funds

                 A.	       For which no management decision	 0	 0
                           had been made by the commencement
                           of the reporting period			

                 B.	       Which were issued during the 	 0	                                                                         0
                           reporting period		

                 C.	       For which a management decision was	
                           made during the reporting period:		

                 	          (i) 	 dollar value of recommendations	                                        0	                         0
                           	      that were agreed to by management

                 	          (ii) 	 dollar value of recommendations 	                                      0	                         0
                            	      that were not agreed to by management

                 D.	       For which no management decision had	                                          0	                         0
                           been made by the end of the reporting period




                 7
                     A “recommendation that funds be put to better use” is a recommendation by OIG that funds could be used more
                     efficiently if NRC management took actions to implement and complete the recommendation, including reductions
                     in outlays; deobligation of funds from programs or operations; withdrawal of interest subsidy costs on loans or loan
                     guarantees, insurance, or bonds; costs not incurred by implementing recommended improvements related to the
                     operations of NRC, a contractor, or a grantee; avoidance of unnecessary expenditures noted in preaward reviews of
                     contract or grant agreements; or any other savings which are specifically identified.




42 NRC Office of the Inspector General Semiannual Report to Congress
TABLE III
Significant Recommendations Described in Previous
Semiannual Reports on Which Corrective Action Has
Not Been Completed
Date	         Report Title	                                                  Number

05/26/2003	    Audit of NRC’s Regulatory Oversight of Special 	              OIG-03-A-15		
	              Nuclear Materials

 Recommendation 1: Conduct periodic inspections
	
 to verify that material licensees comply with material
 control and accountability (MC&A) requirements,
 including, but not limited to, visual inspections of
 licensees’ special nuclear material (SNM) inventories
 and validation of reported information.

 Recommendation 3: Develop and implement a quality
	
 assurance process that ensures that collected enforcement
 data is accurate and complete.



7/12/2012	     Audit of NRC’s Inspections, Tests, Analyses, and 	            OIG-12-A-16
	              Acceptance Criteria Process

 Recommendation 10: Develop and implement a
	
 change management process to address future change
 in the ITAAC process that can create barriers to effective
 communication and coordination.




                                                                    October 1, 2013–March 31, 2014   43
ABBREVIATIONS AND ACRONYMS
                   AEC		 Atomic Energy Commission
                   CFR		 Code of Federal Regulations
                   CIGIE		 Council of the Inspectors General on Integrity and Efficiency
                   DH		 Directive Handbook
                   DOJ 		 Department of Justice
                   EDO		 Executive Director for Operations (NRC)
                   FERC		 Federal Energy Regulatory Commission
                   FISMA		 Federal Information Security Management Act of 2002
                   FOIA		 Freedom of Information Act
                   FUSRAP		 Formerly Utilized Sites Remedial Action Program
                   FY		 fiscal year
                   GIP		 Generic Issues Program
                   HOC		 Headquarters Operations Center (NRC)
                   IAM		 Issue Area Monitor
                   ICM		 interim compensatory measures
                   IG		 Inspector General
                   IGCIA		 The Inspector General Criminal Investigator Academy
                   IT		 Information Technology
                   ITAAC		 Inspections, Tests, Analyses, and Acceptance Criteria
                   MD		 Management Directive
                   MOU		 Memorandum of Understanding
                   NEPA		 National Environmental Policy Act of 1969, as amended
                   NEWFlex		 NRC Employee Work Schedule Flexibilities
                   NRC		 U.S. Nuclear Regulator Commission
                   NRR		 Office of Nuclear Reactor Regulation (NRC)
                   NUMEC		 Nuclear Material and Equipment Corporation
                   OGC		 Office of the General Counsel (NRC)
                   OIG		 Office of the Inspector General (NRC)
                   OIS		 Office of Information Services (NRC)
                   ONS		 Oconee Nuclear Station
                   SLDA		 Shallow Land Disposal Area
                   SNM		 special nuclear material
                   TIA		 Task Interface Agreement
                   TVA		 Tennessee Valley Authority
                   USACE		 U.S. Army Corps of Engineers
                   USI		 Unresolved Safety Issues


44 NRC Office of the Inspector General Semiannual Report to Congress
REPORTING REQUIREMENTS
The Inspector General Act of 1978, as amended (1988), specifies reporting requirements
for semiannual reports. This index cross-references those requirements to the applicable
pages where they are fulfilled in this report.

	
Citation	           Reporting Requirements	                                              Page

Section 4(a)(2)	    Review of Legislation and Regulations	                                6–8

Section 5(a)(1) 	 Significant Problems, Abuses, and Deficiencies	              13–23, 30–36

Section 5(a)(2) 	 Recommendations for Corrective Action	                                13–23

Section 5(a)(3) 	 Prior Significant Recommendations Not Yet Completed	                      43

Section 5(a)(4) 	 Matters Referred to Prosecutive Authorities	                              38

Section 5(a)(5) 	 Information or Assistance Refused	                                    None

Section 5(a)(6) 	 Listing of Audit Reports	                                                 39

Section 5(a)(7) 	 Summary of Significant Reports	                              13–23, 30–36

Section 5(a)(8) 	 Audit Reports — Questioned Costs	                                         41

Section 5(a)(9) 	 Audit Reports — Funds Put to Better Use	                                  42

Section 5(a)(10) 	Audit Reports Issued Before Commencement of the Reporting	           None
                   Period for Which No Management Decision Has Been Made	

Section 5(a)(11) 	 Significant Revised Management Decisions	                            None

Section 5(a)(12) 	 Significant Management Decisions With Which	                        None
                 	 the OIG Disagreed	

Sec. 989C. of the Dodd-Frank Wall Street Reform and Consumer Protection Act (Public
Law 111-203) requires Inspectors General to include the results of any peer review conducted
by another Office of Inspector General during the reporting period; or if no peer review was
conducted, a statement identifying the date of the last peer review conducted by another Office
of Inspector General.

Section 989C.	      Peer Review Information	                                                46



                                                                              October 1, 2013–March 31, 2014   45
APPENDIX
                   Peer Review Information
                   The OIG Audit and Investigative Programs undergo a peer review every 3 years.

                   Audits
                   The NRC OIG Audit Program was peer reviewed most recently by the
                   National Archives and Records Administration Office of Inspector General on
                   September 27, 2012.

                   Investigations
                   The NRC OIG Investigative Program was peer reviewed most recently by the
                   Corporation for National and Community Service Office of Inspector General.
                   The peer review final report, dated September 16, 2013, reflected that the NRC
                   OIG is in compliance with the quality standards established by the Council of
                   the Inspectors General on Integrity and Efficiency and the Attorney General
                   Guidelines for Offices of Inspectors General with Statutory Law Enforcement
                   Authority.




46 NRC Office of the Inspector General Semiannual Report to Congress
OIG VISION                                                          OIG STRATEGIC GOALS
OIG will identify the most critical risks and vulnerabilities in    1. Safety: Strengthen NRC’s efforts to protect public health and
agency operations in a timely manner to allow the agency to            safety and the environment.
take any necessary corrective action and to prevent and detect
                                                                    2. Security: Enhance NRC’s efforts to increase security in
fraud, waste, and abuse.
                                                                       response to an evolving threat environment.
                                                                    3. Corporate Management: Increase the economy, efficiency,
OIG MISSION                                                            and effectiveness with which NRC manages and exercises
                                                                       stewardship over its resources.
The NRC OIG’s mission is to independently and objectively
audit and investigate programs and operations to promote
effectiveness and efficiency, and to prevent and detect fraud,
waste, and abuse.




COVER PHOTOS:

Top Left: Donald C. Cook Nuclear Power Station.
Photo courtesy of American Electric Power

Top Right: NRC Inspector at Calvert Cliffs Nuclear Power Station.

Bottom Left: NRC Inspector performing a walk-down at Calvert
Cliffs Nuclear Power Station.

Bottom Right: Nuclear generator.

Background: Close-up of nuclear construction assembly bolts.
The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility
employees, contractors, and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.

What should be reported:
• Contract and Procurement Irregularities    • Abuse of Authority
• Conflicts of Interest                      • Misuse of Government Credit Card
• Theft and Misuse of Property               • Time and Attendance Abuse
• Travel Fraud                               • Misuse of Information Technology Resources
• Misconduct                                 • Program Mismanagement


Ways To Contact the OIG
                               Call:
                               OIG Hotline
                               1-800-233-3497
                               TDD: 1-800-270-2787
                               7:00 a.m. – 4:00 p.m. (EST)
                               After hours, please leave a message.


                               Submit:
                               Online Form
                               www.nrc.gov                                                  October 1, 2013–March 31, 2014
                               Click on Inspector General
                               Click on OIG Hotline

                                                                                            SEMIANNUAL REPORT
                               Write:
                               U.S. Nuclear Regulatory Commission                           TO CONGRESS
                               Office of the Inspector General
                               Hotline Program, MS O5 E13
                               11555 Rockville Pike
                               Rockville, MD 20852-2738


NUREG-1415, Vol. 27, No. 2
April 2014
